   TIGTA’s 5th Anniversary
       A BRIEF HISTORY OF THE TREASURY
          INSPECTOR GENERAL FOR TAX
            ADMINISTRATION (TIGTA)
● In 1952, as a result of a rash of scandals within the Bureau of Internal
   Revenue, Congress created the Inspection Service. For nearly ﬁve de-
   cades, the organization served as an internal affairs bureau within the
   Internal Revenue Service (IRS) and ensured that the IRS Commissioner
   had full accountability in Federal tax administration.

● One of the duties of the Inspection Service was to protect taxpayer infor-
   mation conﬁdentiality, as deﬁned by Section 6103 of the Internal Revenue
   Code. With its law enforcement and audit authority, the Inspection Ser-
   vice ensured that the IRS complied with the law.

● The Inspector General Act of 1978 established an independent corps of
   government professionals to provide accountability throughout the Federal
   Government. The Inspection Service remained part of the IRS, but was
   distinct from the Inspector General of the Department of the Treasury.

● TIGTA was established ofﬁcially in January 1999, in accordance with the
   IRS Restructuring and Reform Act of 1998 (RRA 98), as a separate entity
   within the Department of the Treasury. TIGTA is tasked with providing
   independent oversight of IRS activities by conducting audits and providing
   investigative services concerning IRS programs and operations.

● 2004 marks TIGTA’s 5th Anniversary! TIGTA is proud of its past and
   focused on its future.
Semiannual Report to Congress




Treasury Inspector General for Tax Administration


         April 1, 2004 through September 30, 2004
                          TABLE                          OF             CONTENTS

                                                                                                                                          Page
Message from TIGTA’s Senior Executives................................................................................. 1

TIGTA’s Mission, Mandate, and Organizational Structure ................................................... 2

Promote the Economy, Efficiency, and Effectiveness of Tax Administration.........................                                          5
     Systems Modernization .......................................................................................................         6
     Tax Compliance Initiatives .................................................................................................          7
     Security of the IRS ..............................................................................................................   10
     Integrating Performance and Financial Management ........................................................                            11
     Providing Quality Customer Service Operations ...............................................................                        11
     Processing Returns and Implementing Tax Law Changes .................................................                                13

Protect the Integrity of Tax Administration .............................................................................                 16
       Executive Steven Jones Interviewed ..................................................................................              17
       Employee Integrity .............................................................................................................   18
       Employee and Infrastructure Security ..............................................................................                21
       External Attempts to Corrupt Tax Administration ............................................................                       22

Congressional Testimony ............................................................................................................ 25

Special Achievements ................................................................................................................... 26

Audit Statistical Reports .............................................................................................................   27
      Audit Reports with Questioned Costs ................................................................................                27
      Prior Period Reports ...........................................................................................................    28
      Reports with Recommendations That Funds Be Put to Better Use ....................................                                   29
      Reports with Additional Quantifiable Impact on Tax Administration ...............................                                   30

Investigations Statistical Reports ...............................................................................................        32
       Complaints/Allegations Received by TIGTA ....................................................................                      32
       Status of Complaints/Allegations Received by TIGTA .....................................................                           32
       Investigations Opened and Closed .....................................................................................             32
       Financial Accomplishments ...............................................................................................          32
       Status of Closed Criminal Investigations ...........................................................................               33
       Criminal Dispositions ........................................................................................................     33
       Administrative Disposition on Closed TIGTA Investigations ..........................................                               34




           April 1, 2004 - September 30, 2004                                                                                      Page i
                                                                                                                              Page
Appendices

Appendix I - Statistical Reports - Other
     Audit Reports with Significant Unimplemented Corrective Actions ................................ 35
     Statistical Reports - Other .................................................................................................. 41

Appendix II - Audit Products
     April 1, 2004 - September 30, 2004 ................................................................................... 42

Appendix III - Statutory TIGTA Reporting Requirements ..................................................... 48

Appendix IV - Section 1203 Standards ..................................................................................... 54

Appendix V - Data Tables Provided by the IRS (Employee Misconduct Reports)
     Report of Employee Misconduct for the Period 04/01/04 - 09/30/04
     Summary by Disposition Groups ....................................................................................... 55
     Report of Employee Misconduct for the Period 04/01/04 - 09/30/04
     National Summary ............................................................................................................. 56
     Summary of Substantiated §1203 Allegations Recorded in ALERTS
     for the Period 4/01/04 - 9/30/04 ......................................................................................... 57




     Page ii                                                                   TIGTA Semiannual Report to Congress
                                                                MESSAGE FROM
                                                                   TIGTA’S
                                                                   SENIOR
                                                                 EXECUTIVES

Seated, left to right: Gordon Milbourn and Joseph Hungate
 Standing, left to right: Marty Greiner, Pamela Gardiner,
          Steven Jones and Mary Anne Curtin


    Marking our fifth anniversary as an independent                      Our audits for the past six months assessed such
    Inspector General affords us the opportunity to                      IRS operational and programmatic issues as
    reflect on our past and note our                                     systems modernization, tax compliance
    accomplishments. On the inside cover of this                         initiatives, IRS security, integrating performance
    report is a chronicle of the significant milestones                  and financial management, providing quality
    in our corporate history, beginning in 1952,                         customer service operations, processing returns
    when we were established as the Inspection                           and implementing tax law changes, and human
    Service within the Bureau of Internal Revenue.                       capital.
    Since TIGTA’s creation in 1999, we have had
                                                                         TIGTA accomplishments since inception and for
    independent status as a distinct bureau within the
                                                                         the past six months are summarized in the
    Treasury Department.
                                                                         following table and demonstrate our continuing
    TIGTA realizes that there are continually new                        commitment to helping in the important effort to
    threats to the IRS and methods to improve its                        improve tax administration and protect its
    operations. We do not rest on our laurels, but                       integrity, thereby benefiting taxpayers. TIGTA
    continue the challenging work that our agency is                     is certainly proud of its past with the many
    required to perform. We also strive to improve                       significant accomplishments we have had,
    our internal agency operations. Our Deputy                           including having established excellent working
    Inspector General for Investigations, Steven                         relationships with the IRS and Congress. Our
    Jones, was recently interviewed by the Federal                       hard working employees are focused on the
    Times (see page 20 in this report). In the article,                  challenges and opportunities that the future holds
    titled “How to Measure Success at a Law                              as we strive to fulfill our agency’s mission and
    Enforcement Agency,” Mr. Jones describes the                         carry out our objectives.
    innovative performance measurement tool he
    and his fellow executives have developed.

                                                            Increased/         No. of           No. of           Regulations/
                     Number of Audit        Cost Savings    Protected       Investigations   Investigations      Legislative
                    Reports Completed        Identified      Revenue           Opened           Closed        Requests Reviewed
Since inception                               $16.4           $27.8
(1999)                       1,077            billion         billion            25,525           25,289              1,678
April 1, 2004 –                               $337            $1.17
Sept. 30, 2004                 108            million         billion              1,691           1,911               171




         April 1, 2004 - September 30, 2004                                                                           Page 1
 TIGTA’S MISSION, MANDATE
    AND ORGANIZATIONAL
         STRUCTURE


 The Treasury Inspector General for Tax                   overseeing the IRS as it strives to achieve
Administration (TIGTA) provides                           its strategic goals, by identifying and
independent oversight of Treasury                         addressing the IRS’ management
Department matters involving IRS                          challenges, and by implementing the
activities, the IRS Oversight Board, and the              President’s Management Agenda and the
IRS Office of Chief Counsel. Although                     priorities of the Department of the Treasury.
TIGTA is placed organizationally in the                   TIGTA’s primary functional offices are the
Treasury Departmental Offices and reports                 Office of Audit (OA) and the Office of
to the Secretary of the Treasury and the                  Investigations (OI). TIGTA’s Offices of
Congress, it functions independently from                 Chief Counsel, Information Technology,
the Departmental Offices and all other                    and Management Services support OA and
offices and bureaus within the Department.                OI efforts. TIGTA conducts audits and
                                                          investigations designed to:
TIGTA’s work is devoted to all aspects of
                                                          •   Promote the economy, efficiency, and
activity related to the Federal tax system as
                                                              effectiveness of tax administration.
administered by the IRS. TIGTA protects
the public’s confidence in the tax system by              •   Protect the integrity of tax
                                                              administration.




                                  TIGTA’s Statutory Mandate
          Protect against external attempts to corrupt or threaten IRS
          employees.
          Provide policy direction and conduct, supervise and coordinate audits
          and investigations related to IRS programs and operations.
          Review existing and proposed legislation and regulations related to
          IRS programs and operations and make recommendations concerning
          the impact of such legislation or regulations.
          Promote economy and efficiency in the administration of tax laws.
          Prevent and detect fraud and abuse in IRS programs and operations.
          Inform the Secretary of the Treasury and Congress of problems and
          deficiencies identified and of the progress made in resolving them.


                         Source: TIGTA Strategic Plan, Fiscal Years 2003-2008




Page 2                                               TIGTA Semiannual Report to Congress
                TIGTA’S ORGANIZATIONAL STRUCTURE


                                            Inspector General




                          Chief Counsel




                                                                  Deputy Inspector
                        Deputy Inspector
                                                                     General for
                        General for Audit
                                                                   Investigations




                     Assistant Inspector                        Assistant Inspector
                   General for Management                     General for Information
                           Services                                 Technology




                                           AUTHORITIES

TIGTA has all the authorities granted                 under the internal revenue laws.
under the Inspector General Act of 1978,              In addition, the IRS Restructuring and
as amended.1 TIGTA also has access to                 Reform Act of 1998 (RRA 98)2 amended
tax information in the performance of its             the Inspector General Act of 1978 to give
tax administration responsibilities and the           TIGTA statutory authority to carry
obligation to report potential criminal               firearms, execute and serve search and
violations directly to the Department of              arrest warrants, serve subpoenas and
Justice. TIGTA and the Commissioner of                summonses, and make arrests as set forth
Internal Revenue have established policies            in Section (§) 7608(b)(2) of the Internal
and procedures delineating responsibilities           Revenue Code (I.R.C.).
to investigate potential criminal offenses

                                                      2
                                                          Public Law No. 105-206, 112 Stat. 685 (codified
                                                          as amended in scattered sections of 2 U.S.C., 5
                                                          U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23
                                                          U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49
1
    5 U.S.C.A. app. 3 (West Supp. 2003).                  U.S.C.).


TIGTA Semiannual Report to Congress                       September 30, 2004                           3
         TIGTA OFFICE LOCATIONS THROUGHOUT
                     THE NATION




Page 4                   TIGTA Semiannual Report to Congress
         PROMOTE THE ECONOMY,
            EFFICIENCY, AND
         EFFECTIVENESS OF TAX
            ADMINISTRATION

TIGTA’s Office of Audit strives to
promote the economy, efficiency, and            IRS’ Major Management Challenges
effectiveness of tax administration by adding   •   Systems Modernization
value to IRS operations. Audit                  •   Tax Compliance Initiatives
                                                •   Security of the IRS
recommendations are provided to improve
                                                •   Integrating Performance and
IRS systems and operations, while ensuring           Financial Management
fair and equitable treatment of taxpayers.      •   Complexity of the Tax Law
TIGTA’s comprehensive, independent              •   Providing Quality Customer
performance and financial audits of IRS              Service Operations
programs and operations focus on mandated       •   Erroneous and Improper Payments
reviews and high-risk challenges facing the     •   Processing Returns and
IRS.                                                 Implementing Tax Law Changes
                                                •   Taxpayer Protection and Rights
                                                •   Human Capital
Audit recommendations result in cost
savings and increased or protected revenue,
reduction of taxpayer burden, and protection
of: taxpayer rights and entitlements;           The following sections highlight significant
taxpayer privacy and security; and IRS          audits completed during this 6-month
resources.                                      reporting period.

Each year, TIGTA identifies the major           The RRA 98 established the IRS Oversight
management challenges facing the IRS.           Board to oversee the IRS in its
These challenge areas for Fiscal Year (FY)      administration of internal revenue laws. The
2004 follow. Audit emphasis is placed on        IRS Oversight Board has the authority and
statutory coverage required by the RRA 98,      responsibility to be directly involved in the
as well as on areas of concern to the           management, direction, strategy, and long-
Commissioner of Internal Revenue, the           term operation of the IRS. The Board was
Secretary of the Treasury, and key              specifically granted review and approval
stakeholders.                                   authority for strategic plans, the
                                                Commissioner’s plans for any major
The statutory audits generally address          reorganization of the IRS, and the IRS
aspects of the major management challenges;     budget request submitted by the
however, legislation also provides TIGTA        Commissioner. In addition, the Board was
the authority to conduct audits and             given the responsibility to review, but not to
investigations of the IRS Oversight Board.      approve operational plans and functions of
                                                the IRS including modernization of the tax




    April 1, 2004 - September 30, 2004                                              Page 5
 system, and the Commissioner’s                should define practices for coordinating
selection, evaluation, and compensation of     with IRS executives and other oversight
IRS senior executives who have program         bodies, develop policies and procedures to
management responsibility over                 evaluate the IRS’ efforts and results in
significant functions of the IRS.              achieving savings and efficiencies, and
                                               make timely use of independent
In our audit of the Oversight Board, many      assessments of the IRS’ modernization
stakeholders told us the Board has             and other programs.
improved IRS governance, as intended by
the RRA 98. However, some stakeholders         Further, TIGTA recommended the Board
were concerned that issues have been           establish guidance to specify which
brought to the Board’s attention each year     circumstances will require a formal
with no apparent action taken towards          resolution and a process to vote on
resolution.                                    formally and publish resolutions, and
                                               define a system to educate new Board
For example, one responsibility of the         members on IRS operations and strategic
Oversight Board is to review and approve       issues. The Oversight Board agreed with
the IRS budget before it is submitted to       the recommendations and is implementing
the Department of the Treasury to ensure       corrective action.
it adequately supports IRS’ strategic          Report Reference No. 2004-10-193
priorities. However, there is concern that
the Board has not had enough influence in      The remaining audit summaries in this
the budget process since previous IRS          report fall into IRS’ Major Management
budgets submitted by the President and         Challenges categories (see page 7).
those passed by the Congress have been
significantly less than those submitted by
                                               SYSTEMS MODERNIZATION
the Board.
                                               The IRS has developed an enterprise
Similarly, the Board was tasked to oversee
                                               architecture to guide the BSM program,
the IRS’ Business Systems Modernization
                                               and the IRS and the PRIME contractor3
(BSM) efforts which are significantly
                                               have deployed business systems projects
behind schedule and over budget. Many
                                               that provide value to taxpayers.
BSM-related recommendations made by
the Board in December 2003 had already
                                               TIGTA reports issued during the past
been made much earlier by TIGTA and
                                               three years have emphasized the need to
the Government Accountability Office.
                                               improve the BSM program. These
                                               findings were confirmed by three
TIGTA recommended the Board
                                               independent studies and a BSM
formalize a process to focus its efforts
                                               benchmarking analysis launched by the
strategically on the most significant issues
facing the IRS, and adopt a process for
                                               3
evaluating and communicating its                    The PRIME contractor is the Computer Sciences
effectiveness and impact on tax                    Corporation, which heads an alliance of leading
                                                   technology companies brought together to assist
administration. In addition, the Board             with the IRS’ efforts to modernize its computer
                                                   systems and related information technology.




  Page 6                                       TIGTA Semiannual Report to Congress
IRS, as well as an internal probe by the      accomplish this culture change, the IRS
PRIME contractor, which resulted in 21        will ensure the Customer Account Data
recommendations, 15 of which were similar     Engine (CADE)4 program and the overall
to those issued in previous TIGTA reports.    health of the BSM program are
TIGTA concluded from these reports that       periodically subjected to a third-party
BSM weaknesses continue to exist and the      assessment, modernization efforts are
IRS and its contractors need to complete      scaled back, senior IRS business unit
planned corrective actions to address the     managers are held accountable for the
root causes identified in the studies.        success of modernization efforts related to
                                              business requirements, capped or fixed-
                                              price contracts for development work are
                                              used, and the skills of experienced IRS tax
                                              executives are complemented by those of
                                              outside seasoned technology executives.
                                              Report Reference No. 2004-20-107


                                              TAX COMPLIANCE INITIATIVES

                                              The IRS’ overall FY 2003 enforcement
          IRS computer room with              efforts and results for its Collection,
            outdated technology               Examination, and Criminal Investigation
                                              (CI) functions were mixed but showed
Over the past two fiscal years, TIGTA has     some continuing positive changes. The
cited four primary challenges the IRS and     President’s proposed FY 2005 budget
its contractors must overcome to be           provides for additional staffing in these
successful – challenges TIGTA believes        functions, a crucial step in the IRS’ ability
still must be met:                            to increase enforcement activities.
• Implement planned improvements in           Significant 2003 highlights include:
     key management processes and
     commit necessary resources to enable     •      Collection function enforcement
     success.                                        actions and revenue increased, while
• Manage the increasing complexity and               there was a decrease in the total
     risks of the BSM program.                       amount of uncollected liabilities and
                                                     in the gap between account closures
• Maintain the continuity of strategic
                                                     and new delinquent accounts.
     direction with experienced leadership.
                                              •      Due mainly to increased
• Ensure PRIME contractor
                                                     correspondence activity, the
     performance and accountability are
                                                     percentage of tax returns examined
     effectively managed.
                                                     increased despite a decrease in
In its response, the IRS agreed with                 staffing.
TIGTA’s annual BSM program
assessment report and stated a
fundamental change was needed. To             4
                                                   The CADE is the foundation for managing
                                                  taxpayer accounts in the IRS’ modernization plan.




    April 1, 2004 - September 30, 2004                                                  Page 7
                          •     Corporate tax return examinations                                     “International transfer pricing” is a term
                                continued to decline. From FY 1997 to                                 commonly used to describe pricing
                                FY 2003, the examination rate for                                     arrangements for exchanging goods,
                                corporate tax returns fell from 1 in 52 to                            services, and other property between
                                1 in 182. To counteract this, the IRS                                 related entities or affiliates of a
                                Commissioner has indicated that some                                  Multinational Enterprise (MNE) group5
                                staffing increases from the President’s                               with operations in the United States and
                                proposed FY 2005 budget would be                                      other countries. As part of a
                                allocated to corporate compliance.                                    comprehensive transfer pricing strategy, at
                                                                                                      the beginning of an examination, Large
                                   Corporate Tax Returns Examined                                     and Mid-Size Business Division
                                           FYs 1997 - 2003                                            employees are to request transfer pricing
                                         93,548
                                                                                                      documentation from MNE taxpayers for
                      100,000                                                                         evaluation by an international examiner
                                                  79,573
                       90,000                                                                         and/or an economist.
                       80,000
                                                           60,268
N um ber of Returns




                       70,000                                                                         TIGTA found that information was
                       60,000                                       43,383                            requested for only about 35 percent of
                                                                             35,705 35,056
                       50,000
                                                                                             30,700   cases closed between FYs 1997 and 2002.
                       40,000
                                                                                                      Following the January 2003 Transfer
                       30,000
                                                                                                      Pricing Compliance Directive’s issuance,
                       20,000
                                                                                                      that number increased to 55 percent of
                       10,000
                                                                                                      cases, which still fell short of the
                           0
                                         FY97     FY98     FY99     FY00     FY01   FY02     FY03     Directive’s requirement to request
                                                                                                      documentation for every case.
                          Source: TIGTA analysis of the IRS Data Book information

                          •     In FY 2002 the CI function increased                                  TIGTA estimated over half of returns with
                                the number of subject investigations                                  potential transfer pricing issues were not
                                initiated and referred for prosecution                                referred to an international examiner for
                                and the percentage of time directly spent                             evaluation because they were surveyed
                                on subject investigations, with fewer                                 improperly by domestic revenue agents
                                days being expended to discontinue                                    and team managers and were never
                                subject investigations. These indicators                              opened for examination. Likewise, some
                                continued to show improvement in FY                                   returns with potential transfer pricing
                                2003 even with an overall decrease in                                 issues that were opened for examination
                                the number of special agents. However,                                were also not being referred for review by
                                CI expects to increase special agent                                  international examiners. By improving
                                staffing substantially in FYs 2004 and                                controls in this area, Federal Government
                                2005. TIGTA is hopeful that IRS                                       revenue could increase by approximately
                                productivity will continue to improve                                 $32.3 million annually in additional
                                and that planned special agent staffing
                                                                                                      5
                                increases will materialize.                                                An MNE group is a group of associated
                                                                                                          companies with business establishments in two or
                          Report Reference Nos. 2004-30-083 and                                           more countries. These companies may be any
                          2004-10-115                                                                     form of business entity including corporations and
                                                                                                          partnerships.




                                Page 8                                                                TIGTA Semiannual Report to Congress
income taxes or reduction in tax                                    Direct Full Time Equivalents (FTE) Return
                                                                          Delinquency Notice Program7
attributes,6 provided the IRS has                                                 FYs 1997 – 2002
additional international examiner
resources.                                                                233
                                                                                  218   209
                                                          250
TIGTA recommended the IRS
                                                          200
reemphasize to all executives, managers,                                                       141
                                                                                                              117
and revenue agents the transfer pricing                   150                                         91
requirements, and implement an
                                                          100
automated control to prevent these returns
from being surveyed improperly. In the                    50
long term, the IRS should have the current
                                                           0
system modified to generate referrals                                    FY97   FY98    FY99   FY00    FY01    FY02
automatically to international examiners
when returns are opened for examination.                             Source: IRS Small Business/Self-Employed
IRS management generally agreed with                                             (SB/SE) Division.
the recommendations.
Report Reference No. 2004-30-133                           TIGTA made no recommendations to
                                                           address the declining resource situation
The IRS has faced the significant                          since the IRS’ FY 2004 budget proposal
challenge of working on an increasing                      provided for additional FTEs. However,
inventory of non-filed returns with                        TIGTA identified two opportunities to use
fewer resources. Potential individual                      the IRS’ limited resources in a more
non-filer cases increased from                             efficient manner. First, return delinquency
6.1 million for Tax Year (TY) 1994 to                      cases involving Federal Government
8.9 million for TY 2001, while the                         employees or retirees could be assigned a
resources available to apply to these                      lower work priority, freeing the IRS to
cases have been reduced significantly.                     address more fully other categories of non-
                                                           filer cases that offer greater potential to
The Return Delinquency Notice                              maximize tax collections.
Program’s effectiveness has been
significantly affected by the resource                     Second, at the time TIGTA completed its
decline. Individual non-filers that have                   review, the IRS may not have been
been identified by the IRS but have not                    realizing the full potential of the Refund
received a return delinquency notice                       Hold Program8 to encourage taxpayers to
increased from 4.8 million for TY 1994 to                  file delinquent returns. However, the IRS
6.7 million for TY 2001, representing a
                                                           7
potential net tax value of $1 billion.                         The data represents FTEs allocated by both the
                                                               SB/SE and Wage & Investment Income Divisions.
                                                           8
                                                               This Program identifies individual taxpayers that
                                                               have filed a current year tax return claiming a
                                                               refund but have not filed returns for a previous tax
6
     Tax attributes are carry forwards of net operating        year for which the IRS believes a tax liability may
    losses and tax credits that can be used to reduce          exist. The IRS freezes the current year refund
    future taxes.                                              while it attempts to resolve the prior year tax
                                                               return delinquency.




       April 1, 2004 - September 30, 2004                                                              Page 9
stated it had made significant changes to         •     Audit trail reviews have improved.
the Refund Hold Program since our                       However, for one major operating
review was performed. IRS management                    system, reviews are not being made
agreed with some of the recommendations                 due to the lack of software needed to
presented in the report.                                analyze audit trail data and to the lack
Report Reference No. 2004-30-127                        of capacity on several outdated
                                                        computers. In addition, audit trails are
                                                        not being run and reviewed for most
SECURITY OF THE IRS                                     IRS applications.
The IRS, under the Federal Manager’s              While the IRS agreed with most of our
Financial Integrity Act of 1982, reported         recommendations it did not agree that it
one computer security material weakness           should continue to designate eight of the
covering nine specific infrastructure             nine issues as material weaknesses. In
weaknesses. The plans and processes               particular, the IRS did not agree with the
developed by the IRS in eight of the areas        recommendations to continue reporting
have not been implemented completely              certification and accreditation of computer
and, as a result, weaknesses still exist.         systems and the review of audit trails as
For example:                                      part of the overall computer security
                                                  material weakness. These disagreements
•      Only 67 percent of systems had been        have been forwarded to the Department of
       certified, and 31 percent had been         the Treasury for resolution.
       accredited. The E-Government               Report Reference Nos. 2004-20-129, 2004-
       scorecard for the President’s              20-131, 2004-20-158 (Limited Official Use),
       Management Agenda now requires an          and 2004-20-155
       agency to certify and accredit 80
       percent of its systems to achieve          The audit trail for detecting improper
       “yellow” status and 90 percent to          activities on modernized systems is not
       achieve “green” status.                    functioning. Software performance and
•      High-risk vulnerabilities exist in the     functionality problems with the Security
       mainframe, UNIX, and Windows               Audit and Analysis System (SAAS) have
       operating systems because the IRS has      prevented users from accessing collected
       not corrected identified weaknesses or     SAAS data. The IRS was aware the
       systems did not comply with                SAAS did not meet IRS requirements
       standards.                                 when delivered, but formally accepted the
                                                  System with the caveat that its
•      Unpatched9 UNIX and Windows                deficiencies were to be addressed. To
       servers exist throughout the IRS,          date, the problems have not been resolved
       mainly because system administrators       fully. As a result, the IRS’ and TIGTA’s
       were not installing all recommended        ability to detect improper activity on its
       security patches to their systems.         computer systems is diminished.

9
     Patches are vendor updates that should be    While the IRS agreed with most of our
    installed into existing programs to address   recommendations, it did not agree to
    security weaknesses or program bugs.
                                                  develop alternatives to audit trails for



      Page 10                                         TIGTA Semiannual Report to Congress
modernized applications in the event         PROVIDING QUALITY CUSTOMER
SAAS deficiencies cannot be corrected.       SERVICE OPERATIONS
Report Reference No. 2004-20-135
                                             Providing top quality service to every
                                             taxpayer in every transaction is integral to
INTEGRATING PERFORMANCE AND                  taxpayer compliance. To assist taxpayers
FINANCIAL MANAGEMENT                         in complying with the law, the IRS offers
                                             assistance through toll-free telephone
Office space costs represent one of the      numbers, walk-in services, and written
IRS’ largest non-payroll expenditures. In    and electronic communications, including
FY 2003, the IRS spent approximately         the IRS’ Web site, IRS.gov. The
$633 million to occupy approximately         effectiveness of each of these services
30.6 million square feet of space in 796     influences a taxpayer’s ability and desire
facilities.                                  to comply voluntarily with tax laws.

Although the IRS has begun to address the
problem of underused office space,
miscalculation in the development of its
overall space utilization rate caused the
rate to be excessively high. Furthermore,
the IRS did not set funds aside to pay the
costs of releasing all underused space.
TIGTA estimated $64 million as the
annual cost for underused IRS office
space. Additionally, by releasing office
space for telecommuting employees,
TIGTA estimated the IRS could save                                 .
$19.8 million each year.                     The Volunteer Income Tax Assistance
                                             (VITA) Program plays an important role
TIGTA recommended the IRS adjust the         in the IRS’ goal of improving taxpayer
target utilization rate by revising          service and facilitating public
calculations and the office space release    participation in the tax system. Posing as
plan to include specific details on costs,   taxpayers, TIGTA auditors had 35 tax
savings, and the benefits of reducing        returns prepared at 44 VITA sites
unneeded leased space. TIGTA also            nationwide, none of which was prepared
recommended the IRS release space after      correctly. Taxpayer issues included
reporting vacancies based on division        income reporting, filing status,
requirements for telecommuting               exemptions, and the Earned Income Tax
employees. IRS management generally          Credit (EITC) and Child Tax Credit. In
disagreed with the recommendations.          addition, information such as VITA site
These disagreements were elevated to the     location, hours, need for an appointment,
Department of the Treasury.                  and language services available was not
Report Reference No. 2004-10-182             always provided accurately or clearly by
                                             IRS employees.




    April 1, 2004 - September 30, 2004                                         Page 11
TIGTA recommended the IRS review the                                             TAC Accuracy Rates for Filing Seasons
                                                                                                        11
                                                                                            2002 - 2004
existing volunteer qualification process                                                            70
                                                                                                             67
and develop a quality review program to
                                                                            70
make certain volunteers are trained,                                                       51
certified, and are applying the law                                         60




                                                       Percentage Correct
correctly. In addition, the IRS should                                      50

ensure VITA site information is current                                     40

and accurate. IRS management agreed                                         30
with the recommendations.                                                   20
Report Reference No. 2004-40-154                                            10

                                                                             0
Providing taxpayer assistance at walk-in                                                  2002    2003     2004

sites called Taxpayer Assistance Centers                                    Source: TIGTA reviews conducted during the period
(TAC) is one strategy the IRS has                                              January through April 2002, 2003, and 2004.
implemented to meet its goal of improving
the quality and efficiency of service                                  TIGTA recommended the IRS identify
delivery. During the 2004 filing season,                               ways to improve TAC work processes and
TIGTA made anonymous visits to the                                     the quality of the taxpayer experience for
TACs to determine if taxpayers received                                those who visit TACs. The IRS Web site
accurate answers to tax law questions. IRS                             and publications should provide a clear
employees answered correctly only                                      explanation of the services offered at
67 percent of the 250 in-scope10 tax law                               TACs. The IRS should also help explain
questions. Although this is an increase from                           to taxpayers what tax law questions TAC
the 2002 filing season’s 51 percent accuracy                           employees can answer by training
rate, it is a decrease from the 2003 filing                            screeners or providing a list of tax law
season’s 70 percent.                                                   topics. IRS management generally agreed
                                                                       with the recommendations.
The IRS has not adequately educated                                    Report Reference No. 2004-40-152
taxpayers on what services are offered at
the TACs. This lack of information                                     The Kiosk Program plays an integral role
creates a burden for taxpayers who visit                               in the IRS’ future concept of self-
TACs and ask questions that are out of the                             assistance customer service. The program
scope of IRS employees’ training and                                   broadens the use of electronic interactions
authorization.                                                         by providing more education and
                                                                       assistance through convenient, easy to use
                                                                       self-assistance channels. However, the
                                                                       IRS cannot determine whether the Kiosk
                                                                       Program provides cost-effective customer
                                                                       service because of insufficient internal
                                                                       controls and management oversight.
                                                                       Though the Kiosk Program has been in
10
  IRS employees are authorized to answer tax law
                                                                       11
 questions related to specific tax topics as long as                         The accuracy rates in the graph represent
 they are within their expertise and training; these                        percentages and include “Correct” and “Correct
 are called in-scope questions.                                             but Incomplete” responses.




     Page 12                                                                TIGTA Semiannual Report to Congress
place since 1998, the IRS has yet to           large numbers of taxpayers.12 TIGTA’s
develop guidelines or processes to             prior and current reviews indicate that the
monitor the program efficiently and            TAS may not be using its resources
effectively.                                   effectively to accomplish its primary
                                               mission of helping individual taxpayers
TIGTA recommended the IRS develop
                                               and resolving systemic problems.
guidelines and strategies to monitor
taxpayer usage and satisfaction; ensure
                                               TIGTA recommended the National
information is current, accurate, and
                                               Taxpayer Advocate (NTA) alert managers
consistent; monitor kiosk functionality;
                                               that case advocates are not developing
place kiosks optimally; and educate
                                               case action plans as required, provide
taxpayers on the benefits and locations of
                                               training on developing case action plans
kiosks. IRS management agreed with the
                                               and establish estimated case completion
recommendations.
                                               dates. TIGTA also recommended the
Report Reference No. 2004-40-151
                                               NTA provide specific direction for
The Taxpayer Advocate Service (TAS) is         managers as to when and how often to
responsible for resolving taxpayers’           review cases and revise procedures, and
problems that have not been addressed          eliminate its 5-day grace period allowed
through normal IRS channels. The time it       on follow-up actions. While expressing
takes the TAS to resolve taxpayers’            some concerns about the presentation of
problems has increased significantly over      data and conclusions, the NTA agreed
the past five years, from an average of 37     with most of the recommendations and is
days in FY 1998 to 76 days in FY 2003.         implementing corrective action.
                                               Report Reference No. 2004-10-166
However, staffing for the TAS has
remained fairly constant, and new case
receipts and closures have decreased           PROCESSING RETURNS AND
approximately 40 percent since FY 1998.        IMPLEMENTING TAX LAW CHANGES

Case management inefficiency was               Corporate taxpayers file a Corporation
responsible for a significant portion of the   Application for Tentative Refund (Form
time increase. Untimely action on cases        1139) to obtain refunds of tax by carrying
occurred when case advocates did not           net operating losses, net capital losses, or
document a plan of action on cases, did        unused general business credits back to
not establish follow-up dates to manage        earlier years. The IRS paid corporate
their inventory effectively, and did not       taxpayers an estimated $22.8 million in
have the technical knowledge to resolve        interest on an estimated 3,300 late refunds
certain issues.                                issued for amounts greater than $10,000
                                               based on Forms 1139 processed in
Last year, TIGTA reviewed the TAS’             Calendar Year (CY) 2002. Interest was
systemic advocacy function, which is           paid because the refunds were not issued
devoted to resolving problems that affect
                                               12
                                                 The National Taxpayer Advocate Could Enhance
                                                the Management of Systemic Advocacy
                                                Resources (Reference Number 2003-10-187,
                                                dated September 2003).




    April 1, 2004 - September 30, 2004                                            Page 13
within 45 days. TIGTA estimated the IRS      A significant number of returns exist on
could have taken action to avoid payment     which the EITC was claimed for children
of $12.6 million of this interest. Form      who were considerably older than the
1139 refund timeliness was affected partly   primary taxpayers, or were actually the
by the consolidation of ten form             taxpayers’ parents. For TY 2002, TIGTA
processing sites to two sites. The           estimates there were over 10,000 tax
additional personnel required to process     returns filed with more than $16 million in
these cases at the two sites are now more    potentially erroneous EITC claimed
experienced, and significant                 because the “child” was significantly
improvements have been made in               older than the primary taxpayer.
controlling and recognizing these cases.
Despite improving procedures, an             The IRS has also been processing tax
estimated $16 million in interest was paid   returns on which either the primary
on an estimated 3,000 late Form 1139         taxpayer or a dependent is deceased.
refunds in CY 2003.                          Although in certain circumstances this is
                                             appropriate, TIGTA identified instances in
TIGTA recommended the IRS use interest       which taxpayers were using SSNs of
reports to monitor the payment of interest   deceased taxpayers to reduce taxes due
and to determine causes for the delays so    improperly or to receive larger refunds.
they could be acted upon. This action        TIGTA estimated that $21 million in
could reduce the payment of avoidable        erroneous tax benefits was obtained after
interest by an estimated $48.3 million       22,000 tax returns included the SSNs of
over five years. IRS management              deceased individuals improperly.
generally agreed with the
recommendation.                              Management generally agreed with our
Report Reference No. 2004-30-171             recommendation to use NAP information
                                             more effectively while processing returns
The IRS maintains a National Account         to help identify taxpayers claiming
Profile (NAP) database that contains         improper tax benefits.
taxpayer information obtained from the       Report Reference No. 2004-40-098 (Limited
Social Security Administration. During       Official Use)
the processing of tax returns, the IRS
compares selected NAP information to         The IRS tax regulations and processes for
validate the identity and age of taxpayers   granting extensions to file corporate income
and dependents claimed on each tax           tax returns prevent the effective, fair, and
return. However, the IRS does not use all    efficient administration of the tax laws.
of the data available in the NAP to help     TIGTA found that the IRS grants extensions
validate that only qualifying children are   of time to file corporate tax returns by
claimed for EITC purposes or to identify     relying on erroneous information provided
tax returns that may be using the Social     by filers that show all anticipated taxes have
Security Numbers (SSNs) of deceased          been paid. This prevents effective and fair
individuals improperly.                      tax administration, as the IRS is generally
                                             prevented from assessing a Delinquency




  Page 14                                     TIGTA Semiannual Report to Congress
                                                         Penalty13 once it has granted an extension.                      of approximately $5.8 billion in corporate
                                                         Otherwise, this penalty would apply to any                       taxes. Approximately 107,000 of these
                                                         taxes not paid by the normal tax return due                      corporations were delinquent in at least two
                                                         date.                                                            of the four years. Of all delinquent taxes
                                                                                                                          reported on corporate income tax returns
                                                              Relationship Between Extension Use and the                  filed after the normal CY 1999 due date, 86
                                                                   Amount of Delinquent Taxes Owed
                                                                                                                          percent are represented by corporations that
                                                                 CORPORATE EXTENSIONS OBTAINED - 1998 to 2001             received an extension.
                                                 $4.5                                                              $4.1
                                                                                                                          The IRS extension regulations also enable
                                                 $4.0
                                                                                                                          corporations owing unusually large
D elinquent Taxes - 1998 to 2001 (in billions)




                                                 $3.5                                                                     amounts, such as $100,000 or more, to
                                                 $3.0                                                                     delay tax payments while avoiding
                                                                                                                          interest charges and FTP penalties that
                                                 $2.5
                                                                                                                          would otherwise accrue to their unpaid
                                                                                                       $1.6
                                                 $2.0
                                                                                                                          taxes. In CY 1999, approximately 2,000
                                                 $1.5                                                                     corporations that received filing deadline
                                                 $1.0
                                                                                            $0.7                          extensions had more than $100,000 each
                                                               $0.2            $0.3                                       in unpaid taxes at the normal return due
                                                 $0.5
                                                                                                                          date. These corporations accounted for
                                                 $0.0
                                                          NONE           ONE             TWO       THREE        FOUR
                                                                                                                          approximately 60 percent ($1.1 billion) of
                                                                                      EXTENSIONS                          all delinquent taxes for CY 1999 owed by
                                                        Source: TIGTA analysis of IRS Business Master File data.          corporations that were granted filing
                                                                                                                          deadline extensions.
                                                         Of 960,000 taxable corporations that
                                                         obtained extensions of time to file in CY                        IRS regulations for granting extensions also
                                                         1999, TIGTA found that approximately                             penalize corporations differently for the
                                                         168,000 of them had failed to pay a total of                     same types of payment noncompliance.
                                                         $1.8 billion in taxes by the normal tax return                   Corporations that file their returns late
                                                         due date. Additionally, of the 960,000                           without a deadline extension can be subject
                                                         corporations, 310,000 had failed to pay                          to vastly different interest and penalty
                                                         taxes on returns with extended due dates at                      amounts than those that received an
                                                         least once between CYs 1998 and 2001,                            extension due to the Delinquent Penalty
                                                         delaying the Federal Government’s receipt                        protection provided by an extension.
                                                                                                                          Additionally, unnecessary taxpayer burden
                                                         13
                                                                                                                          is created by the regulations as corporations
                                                           The Delinquency Penalty (also commonly                         that had paid their taxes on time expended
                                                          referred to as the Failure to File Penalty) is 5
                                                          percent per month and generally cannot exceed                   an estimated $183 million to prepare and
                                                          25 percent of delinquent taxes. The penalty does                submit extension forms in CY 1999, even
                                                          not apply to taxpayers who have paid all taxes by               though these corporations would not have
                                                          the normal tax return due date. The Delinquency
                                                          Penalty is reduced by the amount of the Failure to              been subject to interest or penalties. IRS
                                                          Pay (FTP) Penalty if they apply concurrently. The               management agreed with some of the
                                                          FTP Penalty is assessed on unpaid taxes at a rate               recommendations presented in the report.
                                                          of 0.5 percent per month and cannot exceed 25
                                                          percent of delinquent taxes.                                    Report Reference No. 2004-30-106




                                                                 April 1, 2004 - September 30, 2004                                                          Page 15
    PROTECT THE INTEGRITY                                                     OF
       TAX ADMINISTRATION

 TIGTA’s Office of Investigations helps            administration, and allegations of
protect the ability of the IRS to collect          serious administrative misconduct by
revenue for the Federal Government. To             IRS employees.
achieve this, TIGTA employs federal          •     Conducting proactive investigative
criminal investigators (special agents) in         initiatives to detect criminal and
various cities across the United States to         administrative misconduct in the
investigate allegations of criminal                administration of IRS programs.
violations and serious administrative
misconduct by IRS employees, to protect      •     Operating a Criminal Intelligence
the IRS against external attempts to               Program that manages and coordinates
corrupt tax administration, and to ensure          threat information that could impact
IRS employee and infrastructure security.          the security of IRS employees and
                                                   functions.
                                             •     Investigating assaults and threats made
    “At the IRS, our working equation              against IRS employees, facilities, and
    is service plus enforcement equals             data infrastructure.
     compliance. The better we serve
                                             •     Investigating fraud, waste, and abuse
      the taxpayer, and the better we
                                                   involving IRS procurements.
    enforce the law, the more likely the
     taxpayer will pay the taxes he or       •     Conducting Integrity/Fraud Awareness
                 she owes.”                        Program presentations for IRS
                                                   employees and others, such as tax
     Testimony of the Honorable
     Mark W. Everson, Commissioner,
                                                   practitioners and community groups.
     Internal Revenue Service, before the    •     Operating a national complaint center,
     Subcommittee on Oversight of the              including a hotline and Web site, to
     House Committee on Ways and Means;            process complaints of fraud, waste,
     February 12, 2004.
                                                   abuse and misconduct involving IRS
                                                   employees and programs.
Through its investigative program,           •     Conducting forensic examinations of
TIGTA, pursuant to its unique statutory            physical and electronic evidence to
charge, has responsibility to protect the          support investigations.
integrity of tax administration. TIGTA       •     Using technical and investigative
investigators perform a variety of                 support equipment, training, and other
functions, including:                              specialized services to enhance
                                                   investigative operations.
•    Investigating allegations of criminal
     violations that impact Federal tax




    Page 16                                      TIGTA Semiannual Report to Congress
               Executive Steven Jones Interviewed
                       by Federal Times

TIGTA’s Office of Investigations was profiled in the August 30, 2004 issue of the Federal Times
as one of the key agencies and leaders changing government today. In the “spotlight”
interview, Deputy Inspector General for Investigations Steven Jones outlined the Office of
Investigations’ (OI) efforts on “How to Measure Success at a Law Enforcement Agency.”
Following are highlights of Mr. Jones’ comments:

 • Biggest Management Challenge - is coming up with performance measures that support
 the agency’s law enforcement goals of protecting tax administration and thoroughly vetting
 allegations of wrongdoing.

 • Big question - “What are we trying to accomplish?” - OI identified three functional
 areas of accomplishment: employee integrity, infrastructure protection and external crime.
 OI described what the perfect agent should be doing and designed performance measures
 with that description in mind. The perfect agent’s job is to conduct a thorough and
 complete investigation, because someone else has to do something with the results of the
 investigation. The perfect agent must think, “If I don’t do my job, the case can’t be
 adjudicated or prosecuted.”

 • Performance Ratio - equals the total actions on a case, divided by total number of cases.
 For example, an investigation involving a tax practitioner doing something inappropriate
 with a client could be referred for prosecution. But is that all that should be done to the
 practitioner? A certified public accountant could be debarred, for example. The IRS Office
 of Professional Responsibility, which regulates the tax practitioner community, should also
 hear about the case. Competent employees shouldn’t have to worry about strategic issues,
 but should understand their work contributes to agency goals.

          TIGTA Investigations Protect the Department of Treasury’s Key Role in
                          Collecting the Nation’s Tax Revenue
                                         Employee Integrity




             External Attempts to Corrupt                          Employee and
                  Tax Administration                          Infrastructure Security


                   TIGTA INVESTIGATIVE PERFORMANCE MODEL




    April 1, 2004 - September 30, 2004                                                  Page 17
Earlier this year, the IRS announced its      SED, TIGTA pursues its proactive effort
updated five-year Strategic Plan for 2005-    to detect IRS employees who may have
2009. The Strategic Plan is intended to       improperly accessed confidential taxpayer
provide a roadmap for IRS operations that     information. During this reporting period,
focuses on IRS’ commitment to improve         TIGTA’s Unauthorized Access (UNAX)
taxpayer customer service and enhanced        Program led to the initiation of 244
enforcement of the tax law.                   investigations involving apparent
                                              unauthorized access of IRS computer
The investigative priorities established      systems.
previously by TIGTA’s Office of
Investigations work hand-in-hand with the
new IRS Strategic Plan. TIGTA’s focus         The following cases are examples of IRS
on ensuring employee integrity, employee      employee integrity investigations TIGTA
and infrastructure protection, and            conducted during this reporting period.
protecting the IRS against external
attempts to corrupt tax administration
emphasizes high impact, cost-effective        IRS Data Transcribers Indicted with Co-
results in protecting Federal tax             conspirators for Diverting and Attempting to
administration.                               Divert more than $500,000 in Tax Refunds

                                              In July 2004, two IRS employees were
EMPLOYEE INTEGRITY                            indicted in Tennessee along with four
                                              others for diverting and attempting to
IRS employee misconduct undermines            divert tax refunds. While performing their
the IRS’ ability to deliver taxpayer          official duties as IRS data transcribers, the
service, enforce tax laws effectively and     employees allegedly electronically
collect the proper amount of taxes owed.      deposited tax refunds into bank accounts
TIGTA investigates employee                   controlled by the co-conspirators and
misconduct allegations including              themselves. Their objective was to profit
extortion, theft, taxpayer abuses, false      financially by diverting and attempting to
statements, and financial fraud, as well as   divert tax refunds in excess of $500,000,
contractor misconduct and fraud. During       and was allegedly accomplished by
the reporting period, TIGTA completed         changing the bank routing and account
923 employee integrity investigations.        numbers on tax returns and/or in the IRS
                                              processing system.
As an integral part of its employee
integrity program, TIGTA conducts
proactive integrity initiatives designed to   IRS Revenue Agent Indicted for
                                              Conspiracy, Bribery
uncover fraud in IRS operations and to
identify internal control weaknesses that
                                              In September 2004, an IRS revenue agent
may have permitted crime to go
                                              in California responsible for monitoring
undetected or unreported. A primary tool
                                              and educating businesses about Currency
used in this effort is TIGTA’s Strategic
                                              Transaction Reports (CTR), was indicted
Enforcement Division (SED). Through
                                              for conspiracy, bribery, structuring, and



  Page 18                                      TIGTA Semiannual Report to Congress
causing failure to file legally-mandated       IRS Contract Employee Sentenced for
reports. All cash transactions more than       Stealing IRS Property
$10,000 must be reported to the IRS by
filing CTRs. The agent allegedly assisted      In September 2004, an IRS contract
the co-conspirators in writing checks          employee was sentenced in Maryland for
below $10,000 to avoid the CTR                 stealing government-owned laptop
requirements, cashed the checks at             computers and computer equipment from
businesses he monitored, and instructed        an IRS facility. In the employee’s
the business owners not to file CTRs. The      possession also were two personal digital
agent also allegedly enabled the               assistants, each bearing the decal of the
co-conspirators to obtain more than            IRS. The approximate value of the stolen
$400,000 in cash and to avoid the CTR          items was more than $6,000. The
requirements. The agent is alleged to          employee was sentenced to 12 months’
have received more than $30,000 in             probation and fined $1,000.
compensation from the co-conspirators for
the check cashing services he provided.
                                               IRS Employee Pleads Guilty to Stealing
                                               IRS Checks
IRS Employee Pleads Guilty to Conspiracy
to Defraud United States                       In May 2004, an IRS employee pled
                                               guilty in California to stealing two checks
In July 2004, an IRS employee pled guilty      payable to the IRS. The employee altered
in Maryland to conspiring to defraud the       the checks totaling $500 and converted
United States. The employee                    them for personal use and benefit. The
masterminded schemes in which she              employee was sentenced to 12 months’
fabricated and filed fraudulent Federal        probation and ordered to pay the IRS $500
income tax returns, resulting in erroneous     in restitution, participate in a mental
tax refund payments. The employee              health treatment program and perform 100
arranged for the refunds to be sent directly   hours of community service.
to her or deposited directly into her
personal bank account. In one scheme,
the employee relayed confidential              IRS Tax Examining Assistant Sentenced
                                               for Unauthorized Taxpayer Account
taxpayer information to another individual
                                               Access; Improper Refund Issuance
who used the information to prepare and
file a fabricated tax return. The total loss   In August 2004, an IRS Tax Examining
to the Federal Government exceeded             Assistant was sentenced in California for
$20,000. As part of the plea agreement,        accessing taxpayer accounts without
the IRS employee agreed to resign from         authorization and causing improper
employment with the Federal                    Earned Income Tax Credit refunds
Government. Sentencing is currently            totaling more than $141,500 to be issued
pending.                                       to taxpayers. The employee made more
                                               than 1,500 unauthorized accesses to the
                                               IRS taxpayers’ accounts. In exchange, the
                                               IRS employee was paid a portion of the




    April 1, 2004 - September 30, 2004                                          Page 19
refunds generated. The individual was           bribe and accessing a taxpayer’s records
sentenced to over one year in prison and        without authorization. The former
three years’ supervised release.                employee, a Lead Tax Examining
Additionally, the individual was ordered to     Assistant, had demanded and agreed to
pay restitution of more than $141,500 to        accept a $2,000 bribe from a taxpayer.
the IRS.                                        The employee had accessed the taxpayer’s
                                                IRS electronic tax records to abate the
                                                individual’s tax liability, resulting in an
                                                improper refund. The employee was
   TIGTA’s Strategic Enforcement Division
                                                sentenced to five months’ incarceration
 TIGTA utilizes a variety of tools to expose    and three years supervised probation.
 breaches of employee integrity and other
 attacks against tax administration. The SED
 consists of data analysts, computer
                                                IRS Employee Sentenced for Unauthorized
 specialists, and criminal investigators who
 monitor, probe, and investigate the evolving
                                                Access of Computerized Tax Information
 electronic environment. SED responds to
 computer intrusion incidents, investigates     In June 2004, an IRS employee was
 IRS network vulnerabilities, conducts system   sentenced in New York for unauthorized
 penetration tests, and provides forensic       access of computerized tax information
 processing of computers and other media in
 support of TIGTA investigations.
                                                and unauthorized inspection of returns or
                                                return information. The IRS employee
                                                was sentenced to two years’ probation and
                                                fined $2,000.
IRS Employee Pleads Guilty to
Unauthorized Inspection of Tax Return
Information                                     IRS Employee Pleads Guilty to Unauthorized
                                                Access and Disclosure of Tax Information
In August 2004, an IRS employee pled
guilty in California to inspecting              In September 2004, an IRS employee pled
taxpayers’ return information without           guilty in Texas to unauthorized access and
authorization. The employee made 276            disclosure of tax information, making
different inspections of the tax return         false statements in IRS records, and
information of nine private individuals         unlawful solicitation by a Federal
without authorization from the IRS.             employee. The IRS employee assisted
TIGTA’s SED proactively identified the          taxpayers with their delinquent Federal
unauthorized accesses. Sentencing is            tax returns and accessed IRS
currently pending.                              computerized tax return information
                                                without authorization in attempts to
                                                collect sexual favors from them. The IRS
Former IRS Employee Sentenced for Bribe         employee also made false statements in
Solicitation and Unauthorized Access of         IRS records and disclosed tax return
Taxpayer’s Records
                                                information to unauthorized persons.
In June 2004, a former employee was
sentenced in California for soliciting a




  Page 20                                        TIGTA Semiannual Report to Congress
EMPLOYEE AND INFRASTRUCTURE                   letter, which also contained an inert white
SECURITY                                      powder, stated “Well now it’s my time to
                                              get even with you, You won’t know when
Recognizing the critical role the IRS plays   or where or even how, but I will get you
in collecting nearly $2 trillion in revenue   and more.”
for the Federal Government, TIGTA is
required by statute to protect tax
administration. This unique statutory
mandate sets it apart from other Federal           TIGTA’s Criminal Intelligence Program
Offices of Inspector General. As such,
                                                TIGTA’s commitment to protect the IRS
TIGTA must help protect the IRS’ ability        against threats and assaults includes
to collect tax revenue by providing             operating a nationwide Criminal Intelligence
criminal investigative support and              Program. This Headquarters-directed
ensuring IRS employee and infrastructure        initiative is designed to coordinate the
security.                                       agency’s field investigations of threats,
                                                assaults, and violent acts targeted against
                                                the IRS. TIGTA utilizes this program to
In response to this unique challenge, and       coordinate TIGTA’s participation in FBI Joint
in addition to field investigations,            Terrorism Task Forces throughout the
TIGTA’s Special Inquiries and                   country and to assist the IRS in developing
Intelligence Division manages a Criminal        and enhancing security protocol at all IRS
                                                facilities in an effort to deter and prevent
Intelligence Program (CIP). The CIP             attacks and ensure IRS employee safety and
attempts proactively to identify threats        infrastructure security.
against IRS personnel and facilities.
During this reporting period, TIGTA’s
concerted efforts resulted in the issuance
of 46 advisories notifying IRS
management of potential threats and           Individual Arrested for Mailing
TIGTA completed 531 investigations of         Threatening Letters to IRS
threats and assaults directed at IRS
facilities and employees.                     In September 2004, an individual was
                                              arrested in Connecticut for mailing
                                              threatening letters to IRS. The individual
The following cases are examples of IRS       allegedly sent several letters to IRS that
employee and infrastructure security          contained threats to injure individuals,
investigations TIGTA conducted during this    including the President of the United States.
reporting period.

                                              Individual Arrested for Threatening IRS
Individual Pleads Guilty to Mailing           Employees
Threatening Letter to IRS Employee
                                              In April 2004, an individual was arrested in
In August 2004, an individual pled guilty     Michigan for intimidating and making
in California to mailing a threatening        threatening statements to IRS employees.
communication to an IRS employee              During a compliance inspection of the
conducting an audit of the individual. The    individual’s diesel vehicles, IRS



    April 1, 2004 - September 30, 2004                                           Page 21
employees found a dyed fuel sample in          With the IRS focusing on increased
violation of the Internal Revenue Code.        revenue collection from delinquent
When informed of the potential unlawful        taxpayers, TIGTA anticipates a rise in
use penalty, the individual allegedly stated   attempts by taxpayers to bribe IRS
he would not pay the penalty, moved            employees involved in those collection
toward the employees yelling, and              activities. Since April 1, 2004, TIGTA
instructed them never to return without a      has conducted 27 investigations into
warrant, protection, or the police.            bribery allegations involving taxpayers.
                                               In addition, TIGTA conducted 93
                                               investigations of attempts to manipulate or
EXTERNAL ATTEMPTS TO CORRUPT                   corrupt IRS systems and operations, and
TAX ADMINISTRATION                             335 investigations into non-tax fraud and
                                               other related activities.
TIGTA is dedicated to investigating
external attempts to corrupt or interfere
with the administration of internal revenue    The following cases are examples of
laws. External attempts to corrupt tax         investigations of external attempts to corrupt
administration include bribes offered by       tax administration TIGTA conducted during
taxpayers to compromise IRS employees;         this reporting period.
the manipulation of IRS systems and
programs through the use of bogus liens
and IRS financial reporting instruments;       Individual Pleads Guilty to Bribing IRS
the use of fraudulent IRS documentation;       Employee
and impersonation of IRS officials.
External attempts to corrupt tax               In July 2004, an individual pled guilty in
administration inhibit the Treasury’s          New York to bribing an IRS employee.
ability to collect revenue and undermine       The individual paid the employee $10,000
the public’s confidence in fair and            in cash in exchange for “no-changing” the
effective tax administration — the two         audits of the individual’s Tax Year (TY)
key facets of the IRS Strategic Plan.          2000 and 2002 Individual Income Tax
                                               Returns (Form 1040). Additionally, the
                                               individual paid $5,000 to the employee to
 Case Distribution for External Attempts       reduce a TY 2001 tax liability from
     to Corrupt Tax Administration             $37,000 to approximately $5,000 in tax,
                                               penalties, and interest. TIGTA’s
                           26.8%               Technical Services assisted in the
                                               collection of crucial evidence for the
                                               investigation by conducting electronic
                             5.4%              surveillance of meetings between the
        67.8%                                  individual and the IRS employee.
       Systems Manipulation/Corruption
       Non-Employee Bribery
       External Fraud Schemes




   Page 22                                      TIGTA Semiannual Report to Congress
Individual Sentenced for Bribing IRS            and aiding and abetting each other. The
Employee                                        individuals allegedly attempted to
                                                intimidate an IRS Revenue Officer by
In August 2004, an individual was               threatening to “fine her $5,000 per day in
sentenced in Texas for bribing an IRS           gold and silver” if the IRS Revenue
employee. The individual gave the IRS           Officer continued to collect delinquent
employee $1,000 to improperly lower a           Federal income tax liabilities owed by one
client’s assessment. The individual was         of the individuals. The individuals, in an
sentenced to two years in prison, three         attempt to interfere with tax
years’ supervised release, and fined $5,000.    administration, also allegedly threatened
                                                county employees with financial harm.
Individual Sentenced for Client Fund, IRS
Notice Fraud                                    Certified Public Accountant Sentenced for
                                                Impersonation
In August 2004, an individual was
sentenced in Massachusetts for mail fraud.      In July 2004, a CPA was sentenced in
The individual, who worked as an                Texas for impersonating an IRS
accountant, directed corporate clients to       employee. The individual was retained by
deposit funds for tax purposes into a           a taxpayer to assist in removing a Federal
“client fund” bank account and used the         tax lien from a residence. The CPA
deposited funds for personal purposes,          prepared a bogus IRS letter with the
while failing to make timely payments of        forged signature of an IRS employee
client tax obligations to appropriate state     purporting to remove the tax lien. The
and Federal tax authorities. Without the        individual was sentenced to one year
knowledge or consent of the clients, the        probation and fined $1,000. The IRS
individual also gave the tax authorities a      indefinitely suspended the CPA from
mailing address, controlled by the              practicing before the IRS.
individual, as that of the clients. As a
result, the clients failed to receive notices
from tax authorities informing them of          Individual Sentenced for Impersonating IRS
their delinquencies. One client was             Employee
defrauded of approximately $17,000. The
defendant was sentenced to two years’           In July 2004, an individual was sentenced in
probation and ordered to pay more than          Oregon for impersonating an IRS employee
$3,000 in restitution.                          and using a counterfeit postage meter
                                                stamp. The individual pretended to be an
                                                IRS employee engaged in official business
Two Individuals Charged with Interfering        by producing and mailing fictitious letters to
with Administration of Internal Revenue         a corporation. The individual also
Laws                                            knowingly used a counterfeit postage meter
                                                stamp. The individual was sentenced to
In July 2004, two individuals were              more than one year in prison, three years’
charged in Nevada for interference with         probation, and ordered to pay in excess of
administration of internal revenue laws         $2,967 in restitution to the corporation.



    April 1, 2004 - September 30, 2004                                             Page 23
Individual Indicted for Impersonating IRS   agent. The individual, claiming to be an
Agent                                       IRS employee, allegedly demanded and
                                            obtained a semi-tractor trailer truck, in
In June 2004, an individual was indicted    violation of Federal law.
in Kentucky for impersonating an IRS




  Page 24                                    TIGTA Semiannual Report to Congress
  CONGRESSIONAL                                       TESTIMONY




                            TIGTA’s Acting Inspector General,
                            Pamela J. Gardiner, appeared before Congress
                            three times during this semiannual reporting
                            period:



On April 7, 2004, Ms. Gardiner appeared before the Senate Subcommittee on
Transportation, Treasury and General Government of the Committee on Appropriations to
discuss the IRS FY 2005 budget proposal. Her testimony focused on TIGTA’s review of
IRS issues such as modernization and customer service.

Then, on July 8, 2004, Ms. Gardiner appeared before the House Government Reform
Committee. The testimony spotlighted TIGTA’s success in implementing telecommuting
practices known as Telework. Ms. Gardiner showcased best practices that other Federal
agencies can use in instituting their own Telework program. She also described the
challenges developing the Telework program has posed to management and employees.

On July 21, 2004, Ms. Gardiner appeared before the U.S. Senate Committee on Finance.
Ms. Gardiner discussed the Tax Gap problem, which is represented by the difference
between what is collected in tax revenue, and what could be collected if everyone filed
returns and paid the taxes they owed. Ms. Gardiner identified the measures the IRS is taking
to address the problem, and what recommendations TIGTA has made to enhance the IRS’
ability to identify non-filers and assist in obtaining tax returns and payments. These
recommendations include, but are not limited to:

       •      Withholding on non-employee compensation.
       •      Improving compliance with estimated tax payments.
       •      Matching documents to verify business income.
       •      Addressing compliance in the global marketplace.
       •      Increasing the examination rate.
       •      Increasing staffing in the enforcement functions.
       •      Ensuring individuals sentenced for tax crimes comply with their sentences.




   April 1, 2004 - September 30, 2004                                               Page 25
     SPECIAL                      ACHIEVEMENTS



          TIGTA Receives Kudos from Ecuadorian Director General


  The Director General of Ecuador’s tax system, the Honorable Elsa de Mena, recently
  led tax reform presentations before Paraguayan tax officials. Director General
  de Mena, who overhauled her country’s tax system during the past few years, praised
  highly the assistance she received and is still receiving from the U.S. Treasury’s Office
  of Technical Assistance (Tax) via TIGTA, citing Alan Beber, Ernest Valverde, and
  Terry Freedy for their individual contributions. She is most grateful to them for
  putting her on the right track toward strengthening internal controls and internal
  investigations.




              IRS-Based Organization Elects TIGTA Managers to
                           Leadership Positions


  On July 8, 2004, TIGTA Investigations managers Ernest Valverde and Robert Davila
  were sworn in as Regional Vice-Presidents in the Hispanic Internal Revenue
  Employees (H.I.R.E.) organization. The TIGTA managers represent IRS employees in
  the southeast and midstates regions of the country and are members of H.I.R.E.’s
  Executive Board. H.I.R.E.’s mission is to assist the IRS in recruiting and hiring
  Hispanics and in supporting the development and delivery of customer service to
  Hispanic taxpayers.




Page 26                                           TIGTA Semiannual Report to Congress
                             AUDIT STATISTICAL
                                 REPORTS

                      AUDIT REPORTS WITH QUESTIONED COSTS

Seven audit reports with questioned costs                                          supported by adequate documentation
were issued during this semiannual                                                 (“unsupported cost”); or (3) a finding that
reporting period.1 The term “questioned                                            expenditure of funds for the intended
cost” means a cost that is questioned                                              purpose is unnecessary or unreasonable.
because of: (1) an alleged violation of a                                          The term “disallowed cost” means a
provision of a law, regulation, contract, or                                       questioned cost management, in a
other requirement governing the                                                    management decision, has sustained or
expenditure of funds; (2) a finding, at the                                        agreed should not be charged to the
time of the audit, that such cost is not                                           government.

                                           REPORTS WITH QUESTIONED COSTS

                                                             NUMBER                 QUESTIONED
                                                               OF                      COSTS        UNSUPPORTED COSTS
                 REPORT CATEGORY                             REPORTS              (IN THOUSANDS)      (IN THOUSANDS)
1. For which no management decision had been
   made by the beginning of the reporting period                  0                           $0                    $0
2. Which were issued during the reporting
   period                                                         7                        $3,008                $2,960
3. Subtotals (Item 1 plus Item 2)                                 7                        $3,008                $2,960
4. For which a management decision was made
   during the reporting period
    - Dollar value of disallowed costs2                           2                        $2,284                $2,265
    - Dollar value of costs not disallowed                        1                           $17                   $10
5. For which no management decision
   had been made by the end of the
   reporting period (Item 3 minus Item 4)                         5                         $707                  $6843
6. For which no management decision
   was made within 6 months of report
   issuance                                                       0                           $0                    $0
1
    See Appendix II for identification of audit reports involved.
2
    IRS management disallowed only part of the questioned costs for one report.
3
    Difference due to rounding.




        April 1, 2004 - September 30, 2004                                                                                Page 27
                        PRIOR PERIOD REPORTS
During this reporting period, the IRS did not provide TIGTA with the value of
questioned costs for any reports issued before April 1, 2004, for which the amount of
questioned costs could not be determined at the time the reports were issued.




Page 28                                          TIGTA Semiannual Report to Congress
      AUDIT REPORTS WITH RECOMMENDATIONS THAT
              FUNDS BE PUT TO BETTER USE

 Seven reports with recommendations                                 agreements; (5) preventing erroneous
 that funds be put to better use were                               payment of the following refundable
 issued during this semiannual                                      credits: Earned Income Tax Credit
 reporting period.1 The term                                        and Child Tax Credit; or (6) any other
 “recommendation that funds be put to                               savings which are specifically
 better use” means a recommendation                                 identified. The term “management
 that funds could be used more                                      decision” means the evaluation by
 efficiently if management took actions                             management of the findings and
 to implement and complete the                                      recommendations included in an audit
 recommendation, including: (1)                                     report and the issuance of a final
 reductions in outlays;                                             decision concerning its response to
 (2) deobligations of funds from                                    such findings and recommendations,
 programs or operations; (3) costs not                              including actions concluded to be
 incurred by implementing                                           necessary.
 recommended improvements related                                   1
                                                                      See Appendix II for identification of audit
 to operations; (4) avoidance of                                    reports involved.
 unnecessary expenditures noted in
 pre-award reviews of contract


         AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                                   NUMBER              AMOUNT
                         REPORT CATEGORY                                          OF REPORTS       (IN THOUSANDS)

1. No management decision made by the beginning of the reporting period                 2                 $44,340

2. Issued during the reporting period                                                   7                $333,615

3. Subtotals (Item 1 plus Item 2)                                                       9                $377,955

4. Management decision made during reporting period
   Dollar value management agreed to
   - Based on proposed management action                                                4                  $4,299
   - Based on proposed legislative action                                               0                      $0
   Dollar value management disagreed with                                               1                 $28,400

5. No management decision at end of period (Item 3 minus Item 4)                        4                $345,256

6. No management decision within 6 months of issuance                                   2                 $44,340




 April 1, 2004 - September 30, 2004                                                                         Page 29
  REPORTS WITH ADDITIONAL QUANTIFIABLE IMPACT
            ON TAX ADMINISTRATION
In addition to questioned costs and          tax laws, regulations, and IRS policies
funds put to better use, the Office of       and procedures.
Audit has identified measures that
demonstrate the value of audit               Increased Revenue: Assessment or
recommendations to tax administration        collection of additional taxes.
and business operations. These issues
are of interest to IRS and Treasury          Revenue Protection: Proper denial of
executives, the Congress, and the            claims for refund, including
taxpaying public, and are expressed in       recommendations that prevent
quantifiable terms to provide further        erroneous refunds or efforts to defraud
insights into the value and potential        the tax system.
impact of the Office of Audit’s
products and services. Including this        Taxpayer Privacy and Security:
information also promotes adherence to       Protection of taxpayer financial and
the intent and spirit of the Government      account information (privacy).
Performance and Results Act (GPRA).          Processes and programs that provide
                                             protection of tax administration,
Definitions of these additional              account information, and
measures are:                                organizational assets (security).

Taxpayer Rights and Entitlements at          Inefficient Use of Resources: Value
Risk: The protection of due process          of efficiencies gained from
(rights) that is granted to taxpayers by     recommendations to reduce cost while
law, regulation, or IRS policies and         maintaining or improving the
procedures. These rights most                effectiveness of specific programs;
commonly arise in the performance of         resources saved would be available for
filing tax returns, paying delinquent        other IRS programs. Also, the value of
taxes, and examining the accuracy of         internal control weaknesses that
tax liabilities. The acceptance of           resulted in an unrecoverable
claims for and issuance of refunds           expenditure of funds with no tangible
(entitlements) are also included in this     or useful benefit in return.
category, relating to instances when
taxpayers have a legitimate assertion to     Protection of Resources:
overpayments of tax.                         Safeguarding human and capital assets,
                                             used by or in the custody of the
Reduction of Burden on Taxpayers:            organization, from inadvertent or
Decreases by individuals or businesses       malicious injury, theft, destruction,
in the need for, frequency of, or time       loss, misuse, overpayment, or
spent on contacts, record keeping,           degradation.
preparation, or costs to comply with




Page 30                                    TIGTA Semiannual Report to Congress
    Reliability of Management                                                            The number of taxpayer accounts and
    Information: Ensuring the accuracy,                                                  dollar values shown in the following
    validity, relevance, and integrity of data,                                          chart were derived from analyses of
    including the sources of data and the                                                historical data, and are thus considered
    applications and processing thereof,                                                 potential barometers of the impact of
    used by the organization to plan,                                                    audit recommendations. Actual results
    monitor, and report on its financial and                                             will vary depending on the timing and
    operational activities. This measure                                                 extent of management’s implementation
    will often be expressed as an absolute                                               of the corresponding corrective actions,
    value (i.e., without regard to whether a                                             and the number of accounts or
    number is positive or negative) of                                                   subsequent business activities impacted
    overstatements or understatements of                                                 from the dates of implementation. Also,
    amounts recorded on the organization’s                                               a report may have issues that impact more
    documents or systems.                                                                than one outcome measure category.


                     REPORTS WITH ADDITIONAL QUANTIFIABLE IMPACT ON TAX ADMINISTRATION
                                                NUMBER OF           NUMBER OF TAXPAYER                          DOLLAR VALUE
OUTCOME MEASURE CATEGORY                        REPORTS1                ACCOUNTS                                (IN THOUSANDS)                     OTHER5
                                                                                                                                                            6
Taxpayer Rights and
Entitlements at Risk                                   7                                   2,024                              $484,440
                                                                                                                                                            7
Reduction of Burden
On Taxpayers                                           9                              2,455,5492                            $1,967,4003
Increased Revenue                                      6                                  4,407                             $1,146,6983, 4
Revenue Protection                                     2                                 23,110                                $25,003
Taxpayer Privacy and
Security                                               1                                     197
Inefficient Use of
Resources                                              5                                                                         $7,5053
                                                                                                                                                            8
Protection of Resources                                1
                                                                                                                                                            9
Reliability of Management
Information                                            7                                 30,549                                  $1,000
1
  See Appendix II for identification of audit reports involved.
2
  In one report (Reference No. 2004-10-148) IRS management did not agree with the total of 2.3 million taxpayer records affected over a 5-year
period because a conclusive determination cannot be made on the accuracy of each record on the Centralized Authorization File. In a second report
(Reference No. 2004-10-185) IRS management did not agree that taxpayer burden would be decreased by immediate transfer of 23,500 cases and
that Collection Field function's control over cases indicates that $2 million was being pursued for payment. In a third report (Reference No. 2004-
10-166) IRS management did not fully agree that 76,183 taxpayer cases were delayed.
3
  In one report (Reference No. 2004-30-106) IRS management did not agree that the implementation of the recommendations would result in the
reported potential benefits involving reduction of taxpayer expenses of $1.97 billion and reduction of processing costs of $5.0 million over a 5-year
period. In addition, they expressed concern with using penalties to increase revenue of $512.9 million over a five-year period.
4
  In one report (Reference No. 2004-30-127) IRS management did not agree that reapplying resources would result in increased revenue of $436.7
million over a 5-year period.
5
  Some reports contained “Other” quantifiable impacts besides the number of taxpayer accounts, number of hours, and dollar value. These outcome
measures are described in the footnotes, below.
6
   Other measures of taxpayer rights and entitlements consist of 22,478 Notices of Federal Tax Lien in which taxpayers rights could be affected.
7
   Other measure of taxpayer burden consists of 371,221 notices to taxpayers that were not sent to their representatives, did not reflect the taxpayer's
most current name or address information, or contained unclear and missing information (Reference No. 2004-40-099) and 53 incorrect answers to
tax law questions (Reference No. 2004-40-152).
8
  Other measure of protection of resources consists of 198 Employee Tax Compliance referrals that were over 180 days old (Reference No. 2004-
40-176).
9
   Other measure of reliability of management information consists of 94 political organizations that may not be identified on the Web site
(Reference No. 2004-10-097) and 106 Internal Revenue Manual Sections with prohibited references to Illegal Tax Protestor designations
(Reference No. 2004-40-109)




    April 1, 2004 - September 30, 2004                                                                                                   Page 31
              INVESTIGATIONS
            STATISTICAL REPORTS

COMPLAINTS/ALLEGATIONS                                        INVESTIGATIONS OPENED AND
RECEIVED BY TIGTA                                             CLOSED

Complaints Against                                            Total Opened:                  1,691
IRS Employees:                                       2,144    Total Closed:                  1,911
Complaints Against
Non-Employees:                                       1,611
                                                              FINANCIAL ACCOMPLISHMENTS
TOTAL COMPLAINTS/
     ALLEGATIONS:                                    3,755    Embezzlement/Theft
                                                              Funds Recovered:           $1,675,821
                                                              Court Ordered Fines,
STATUS OF                                                     Penalties and Restitution: $4,213,100
COMPLAINTS/ALLEGATIONS                                        Out-of-Court Settlements:          $0
RECEIVED BY TIGTA

Investigations Initiated:       1,318
In Process Within TIGTA1:         174
Referred to IRS for Action:       327
Referred to IRS for Information: 920
Referred to a Non-IRS Entity2:     14
Closed/No Referral:               798
Closed/All Actions Completed:     204

TOTAL COMPLAINTS:                                    3,755




1
  Complaints for which final determination had not
been made at the end of the reporting period.
2
  A non-IRS entity includes other law enforcement
entities or Federal agencies.

Note: The IRS made 62 referrals to TIGTA that would
more appropriately be handled by the IRS and, therefore,
were returned to the IRS. These are not included in the
total complaints shown above.




Page 32                                                      TIGTA Semiannual Report to Congress
                                          STATUS OF CLOSED CRIMINAL INVESTIGATIONS

    CRIMINAL REFERRALS1                           EMPLOYEE                         NON-EMPLOYEE                                 TOTAL
    Referred – Accepted for
    Prosecution                                          36                                  130                                   166
    Referred – Declined for
    Prosecution                                        386                                   351                                   737
    Referred – Pending
    Prosecution Decision                                 32                                   44                                    76
    TOTAL CRIMINAL
    REFERRALS                                          454                                   525                                   979

    No Referrals                                       476                                   498                                   974
1
    Criminal referrals include both Federal and State dispositions.




                                                           CRIMINAL DISPOSITIONS1

                                                        EMPLOYEE                   NON-EMPLOYEE                                 TOTAL

    Guilty                                                     24                             91                                 115

    Nolo-Contendere                                             0                              3                                    3

    Pre-trial Diversion                                         3                              9                                   12

    Deferred Prosecution2                                       2                             11                                   13

    Not Guilty                                                  2                              0                                    2

    Dismissed3                                                  3                             16                                   19

    TOTAL CRIMINAL
    DISPOSITIONS                                               34                            130                                 164
1
  Final criminal dispositions during the reporting period. This data may pertain to investigations referred criminally in prior reporting periods
and do not necessarily relate to the investigations referred criminally in the Status of Closed Criminal Investigations table.
2
  Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with certain conditions imposed by
the court. Upon defendant’s completion of the conditions, the court dismisses the case. If the defendant fails to fully comply, the court
reinstates prosecution of the charge.
3
  Court dismissed charges.




        April 1, 2004 - September 30, 2004                                                                                                Page 33
                  ADMINISTRATIVE DISPOSITION ON CLOSED TIGTA INVESTIGATIONS1

    Removed, Terminated or Other                                                                                            222

    Suspended/Reduction in Grade                                                                                             88

    Oral or Written Reprimand/Admonishment                                                                                  124

    Closed – No Action Taken                                                                                                297

    Clearance Letter Issued                                                                                                 125

    Employee Resigned Prior to Adjudication                                                                                 104

    TOTAL ADMINISTRATIVE DISPOSITIONS                                                                                       960

1
 Final administrative dispositions during the reporting period. This data may pertain to investigations referred administratively in prior
reporting periods and does not necessarily relate to the investigations closed in the Investigations Opened and Closed table.




Page 34                                                                         TIGTA Semiannual Report to Congress
     APPENDIX I – STATISTICAL
         REPORTS – OTHER

           AUDIT REPORTS WITH SIGNIFICANT UNIMPLEMENTED
                        CORRECTIVE ACTIONS
The Inspector General Act of 1978 requires identification of significant recommendations described in
previous semiannual reports in which corrective actions have not been completed. The following list is
based on information from the IRS Office of Management Control’s automated tracking system
maintained by Treasury management officials.



                                PROJECTED                   REPORT TITLE AND RECOMMENDATION SUMMARY
 REFERENCE                      COMPLETION              (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
  NUMBER          ISSUED          DATE                                    P = PLAN NUMBER)
   093602        April 1999                    The Internal Revenue Service Needs To Improve Treatment of Taxpayers
                                               During Office Audits

                                  10/01/05     F-1, R-4, P-2. Ensure that all MACS data discs forwarded from the MACS
                                               Development Center to district offices are properly accounted for and secured.
 2000-30-059     March 2000                    The Internal Revenue Service Can Improve the Estate Tax Collection Process

                                  01/15/05     F-2, R-2, P-1. Develop procedures to periodically reconcile tax liens on the
                                               Automated Lien System (ALS) with information shown on the taxpayer
                                               accounts.
                                  01/15/05     F-2, R-3, P-1. Clarify procedures to employees that all estate tax liens should be
                                               recorded on the ALS.

 2000-30-130   September 2000                  Opportunities Exist to Enhance the International Field Assistance
                                               Specialization Program

                                  10/15/05     F-2, R-1, P-1. Improve the management information system by linking the
                                               International Field Assistance Specialization Program indicator to specific issues
                                               listed in the International Case Management System.

 2000-30-162   September 2000                  The Internal Revenue Service Needs to Better Address Bankruptcy Automatic
                                               Stay Violations

                                  11/15/06     F-1, R-2, P-1. Provide additional computer programming enhancements to
                                               improve the value of litigation transcripts.

 2001-10-027    January 2001                   Improved Case Monitoring and Taxpayer Awareness Activities Can Enhance
                                               the Effectiveness of the Tax Practitioner Disciplinary Proceedings Program

                                  12/15/04     F-1, R-1, P-1. Upgrade the automated case management system to provide
                                               more timely and accurate data on case activities and the use of program
                                               resources.

 2001-20-043    February 2001                  Electronic Signature Initiatives Could Be Better Defined and Evaluated

                                  11/01/04     F-1, R-1, P-1. Finalize IRS requirements for the use of Personal Identification
                                               Numbers as alternative signatures for electronically filed returns based on
                                               evolving guidance and the draft IRS authentication security policy and
                                               implementation guide.
                                  01/01/05     F-1, R-2, P-1. Ensure that all operational alternative signature initiatives comply
                                               with the requirements.




    April 1, 2004 - September 30, 2004                                                                               Page 35
                               PROJECTED                REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                      COMPLETION            (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER         ISSUED           DATE                                  P = PLAN NUMBER)
2001-30-052    March 2001                   Program Improvements Are Needed to Encourage Taxpayer Compliance in
                                            Reporting Foreign Sourced Income

                                01/01/05    F-1, R-1, P-1. Ensure the prior recommendations are implemented.
                                            Establishing a formal program with goals, objectives, processes and measures
                                            could help ensure that sufficient management attention is devoted to improving
                                            the use of the Routine Exchange of Information Program for compliance.
                                01/01/05    F-2, R-1, P-1. Identify the highest risk foreign sourced income documents and
                                            use them to coordinate with tax treaty partners to positively identify the U.S.
                                            taxpayers involved.
                                01/01/07    F-3, R-1, P-1, P-2. Improve systems that process data the IRS receives on
                                            foreign sourced income.
2002-30-042   December 2001                 The Internal Revenue Service Has Made Some Progress, but Significant
                                            Improvements Are Still Needed to Reduce Errors in Manual Interest
                                            Calculations

                                01/15/05    F-1, R-2, P-1. Establish a national quality review process that includes all
                                            restricted interest cases.

2002-30-156   September 2002                The Internal Revenue Service Does Not Penalize Employers that File Wage
                                            and Tax Statements with Inaccurate Social Security Numbers

                                11/15/04    F-1, R-1, P-1. Ensure that the IRS initiate, as proposed in their response to our
                                            memorandum dated February 1, 2002, a regularly scheduled program for
                                            proposing penalties for Wage and Tax Statements (Forms W-2) with inaccurate
                                            name/Social Security Number combinations.

2002-10-187   September 2002                The New Suspension of Interest Provision Is Not Always Calculated Correctly

                                01/15/05    F-2, R-1, P-1. Identify all taxpayers with under assessed interest caused by the
                                            original Master File computer programming, regardless of whether or not the
                                            interest had been reestablished on the accounts, and zero-out any under-assessed
                                            amounts to prevent burden on future disaster relief taxpayers or other taxpayers
                                            in special military conditions.
                                01/15/05    F-2, R-2, P-1. Identify disaster relief taxpayers and refund the amounts that
                                            were automatically collected on the under assessed interest.
2003-40-023   November 2002                 Trends in Customer Service in the Taxpayer Assistance Centers Show
                                            Procedural and Training Causes for Inaccurate Answers to Tax Law
                                            Questions

                                10/01/05    F-5, R-2, P-1. Explore other options such as the planned remote monitoring by
                                            Taxpayer Assistance Centers (TAC) managers, for conducting quality reviews
                                            of TAC employees on a regular basis.

2003-20-035   December 2002                 Additional Cost Savings and Increased Productivity in the Print Operation
                                            and Computer Support Function Can Be Achieved at the Campus Locations

                                06/15/05    F-1, R-1, P-1. Increased coordination should be required with users to
                                            discontinue printing reports that are currently available in both printed and
                                            electronic format and convert additional reports to the Electronic On-
                                            Line/Output Network System (EONS).
                                03/15/05    F-1, R-2, P-1. Establish a process for migrating identified efficient report
                                            distribution processes to all campuses.
                                11/01/04    F-1, R-4, P-1. Defer any upgrades of the new printers until the print
                                            requirements are re-evaluated based on additional reports being available or on
                                            the EONS and the transfer of notice printing to the consolidated print sites.
                                01/15/05    F-2, R-2, P-1. Ensure that performance management reports are created for the
                                            print operation and computer support function based on the performance
                                            measures established in Recommendation 3.
                                06/01/05    F-2, R-3, P-1. Ensure that managers compare results against performance
                                            measure goals and take actions to improve operational efficiency.




 Page 36                                                      TIGTA Semiannual Report to Congress
                              PROJECTED                 REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                     COMPLETION            (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER          ISSUED         DATE                                 P = PLAN NUMBER)
2003-20-049   February 2003                Employee Background Investigations Were Normally Completed; However,
                                           the Contractor Employee Background Investigation Program Needs
                                           Improvement

                               09/15/04    F-2, R-3, P-1. Ensure that all contractor employees have properly paid their tax
                                           obligations.
                               11/15/04    F-2, R-4, P-2. Ensure that background investigations are completed for active
                                           contractor employees that obtained identification badges without a background
                                           investigation.
                               11/15/04    F-2, R-5, P-2. Ensure that personnel in the Real Estate and Facilities area of the
                                           Agency-Wide Shared Services are adequately trained regarding the
                                           requirements for issuing a contractor employee an IRS identification badge.
                               10/15/05    F-3, R-1, P-1. Ensure that a consolidated or integrated system is implemented to
                                           effectively manage all background investigations and identification badges,
                                           incorporating the needs of all stakeholders and eliminating the use of stand-
                                           alone systems such as the Security Entry Tracking System and the Procurement
                                           Background Investigation Program.
                               10/15/05    F-3, R-2, P-1. Ensure that until a single system is implemented, all COTRs are
                                           required to use the Procurement Background Investigation Program regardless
                                           of their organizational placement, and complete periodic reconciliations between
                                           the contractor employee background investigation information and the
                                           identification badge information at each IRS facility are conducted to detect the
                                           issuance of contractor employee identification badges without completion of
                                           required background investigations.

2003-10-054    March 2003                  The Internal Revenue Service Needs to Establish an Effective Process to
                                           Accurately Identify, Record, and Report Unemployment Trust Fund
                                           Administrative Expenses

                               03/31/05    F-1, R-3, P-1. Ensure that the ability to record and report trust fund
                                           administrative expenses, as currently envisioned in the Integrated Financial
                                           System development plans is properly implemented.

2003-10-094    March 2003                  Improvements Are Needed in the Monitoring of Criminal Investigation
                                           Controls Placed on Taxpayers’ Accounts When Refund Fraud is Suspected

                               12/15/04    F-1, R-1, P-1. Consider providing future report listings to the Fraud Detection
                                           Center (FDC) in an electronic media format and consider changing the
                                           frequency of the report from quarterly to twice a year, during non-peak
                                           processing periods, to allow the FDC to focus their resources on taking
                                           necessary actions to resolve accounts.
                               12/15/04    F-1, R-2, P-1. Ensure that regular reviews of the Questionable Refund Program
                                           are conducted to assess compliance with procedures and that feedback is
                                           provided regarding program effectiveness. Also, analyses of the FDCs control
                                           listing data should be required to ensure reviews are done and accounts are
                                           resolved.
2003-20-082    March 2003                  Penetration Test of Internal Revenue Service Computer Systems

                               10/01/04    F-5, R-1, P-1. Apply proper security patches and/or registry settings.
                               02/01/05    F-6, R-1, P-1. Allow only network services that are specifically required and
                                           explicitly disable all other services.
2003-40-139    June 2003                   Opportunities Exist to Improve the Administration of the Earned Income Tax
                                           Credit

                               08/15/05    F-1, R-2, P-1. Establish a consistent method to measure progress toward the
                                           EITC Program’s long-term goals.




   April 1, 2004 - September 30, 2004                                                                           Page 37
                               PROJECTED                    REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                      COMPLETION                (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER          ISSUED          DATE                                    P = PLAN NUMBER)
2003-20-118     July 2003                      Security Over Computers Used in Telecommuting Needs to Be Strengthened

                                 06/30/05      F-1, R-1, P-1. Remind telecommuting employees periodically to store and
                                               encrypt sensitive information on secure locations of their laptop computers.
                                 06/30/05      F-1, R-2, P-1. Remind system administrators to reset security settings after
                                               servicing laptop computers.
                                 06/30/05      F-1, R-3, P-1. Develop guidance to assist functional managers in determining
                                               whether sensitive data are being stored in unencrypted areas on their employees’
                                               laptop computers.
                                 04/01/05      F-1, R-5, P-1. Consider purchasing commercial software to provide FIPS-
                                               compliant encryption scheme software for laptops used in telecommuting.
                                 06/30/05      F-1, R-6, P-1. Require front-line managers to periodically check their
                                               employees’ laptop computers to ensure that sensitive data are being stored and
                                               encrypted properly.
                                 12/15/06      F-2, R-2, P-1, P-2, P-3. Consider installing personal firewall and IDS software
                                               on SDI laptop computers and require CSIRC to centrally monitor the generated
                                               logs.
2003-30-162    August 2003                     The Regulations for Granting Extensions of Time to File are Delaying the
                                               Receipt of Billions of Tax Dollars and Creating a Substantial Burden for
                                               Compliant Taxpayers

                               P-1: 08/15/05   F-1, R-1, P-1, P-2. Revise the tax regulations applicable to individual taxpayers.
                               P-2: 07/15/05
                                 08/15/05      F-1, R-2, P-1. Consider changing the regulations to eliminate the requirement
                                               for taxpayers to file an application with the IRS in order to receive extensions of
                                               time to file a tax return.
                                 08/15/05      F-1, R-3, P-1. Revise the tax package instructions.
2003-30-176    August 2003                     Interest Paid to Large Corporations Could Significantly Increase Under a
                                               Proposed New Revenue Procedure

                                 11/15/05      F-1, R-2, P-1. Gather pertinent information concerning the effect the proposed
                                               procedure will have on reducing the length of examinations and interest costs by
                                               conducting a pilot program to demonstrate the actual benefits that could be
                                               achieved.
2003-40-180    August 2003                     More Information Is Needed to Determine the Effect of the Automated
                                               Underreporter Program on Improving Voluntary Compliance

                                 07/15/06      F-2, R-1, P-1. Improve the current management information system process to
                                               capture data sufficient to establish baselines and long-term measures and goals.

2003-40-185    August 2003                     More Information Is Needed to Determine the Effect of the Discretionary
                                               Examination Program on Improving Service to All Taxpayers

                                 12/15/04      F-1, R-1, P-1. Finalize the Concept of Operations that will establish long-term
                                               goals and related measures for the Discretionary Examination Program that
                                               reflect the Program’s anticipated outcomes over time.

2003-10-187   September 2003                   The National Taxpayer Advocate Could Enhance the Management of
                                               Systemic Advocacy Resources

                                 08/15/04      F-1, R-1, P-1. Formalize the policy of concurrently working systemic advocacy
                                               projects and assignments in support of its Annual Report to Congress, and
                                               implement a process to manage both operations simultaneously.
                                 08/15/04      F-1, R-2, P-1. Establish timeliness and staff resource standards for conducting
                                               systemic advocacy projects based on the experience to date.
                                 01/01/05      F-1, R-3, P-1. Upgrade the SAMS to provide data on systemic advocacy project
                                               activities and staff resources to assist managers in monitoring and budgeting
                                               systemic advocacy resources.




 Page 38                                                         TIGTA Semiannual Report to Congress
                               PROJECTED                REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                      COMPLETION            (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER           ISSUED         DATE                                P = PLAN NUMBER)
2003-10-201   September 2003                Lead Development Centers Do Not Significantly Contribute to Increases in
                                            Legal Source Cases

                                10/15/04    F-2, R-2, P-1. Issue procedures for the LDC analysts to follow when
                                            researching cases.
                                11/15/04    F-3, R-1, P-1. Ensure that the data in the LDC database are consistent and issue
                                            instructions on how to use the LDC database.
2003-10-212   September 2003                Information on Employee Training Is Not Adequate to Determine Training
                                            Cost or Effectiveness

                                12/15/04    F-1, R-1, P-1. Require all business units to use the IRS training management
                                            information systems as their official system of records.
                                03/25/05    F-1, R-2, P-1. Ensure the new Learning Management System has the
                                            appropriate validity checks to ensure data on training courses, costs, and CPE
                                            hours are correct, to avoid input errors.
                                03/15/05    F-1, R-3, P-1. Ensure that periodic reviews of the ACES data are conducted to
                                            verify ACES data and make any needed corrections.
                                10/15/04    F-2, R-1, P-1. Develop a method of properly allocating training costs to courses
                                            and employees/students.
                                10/15/04    F-3, R-1, P-1. Ensure that a better course numbering scheme is developed in the
                                            LMS to be used to identify the types of training provided and the skills
                                            addressed.
                                P-1, P-2:   F-3, R-2, P-1, P-2, P-3, P-4. Ensure the IRS training and financial systems can
                                07/15/05    provide information needed for the IRS to assess its own training efforts.
                                P-3, P-4:
                                10/15/05
2003-20-219   September 2003                The Cost and Schedule Estimation Process for the Business Systems
                                            Modernization Program Has Been Improved, But Additional Actions Should
                                            Be Taken

                                10/15/04    F-1, R-1, P-1. Ensure that all contractors working on BSM projects follow the
                                            PRIME contractor’s policies and procedures for preparing cost and schedule
                                            estimates and provide data for inclusion in the historical database.
                                10/15/04    F-1, R-4, P-1. Ensure that the SEI is requested to conduct an independent
                                            review of the cost and schedule estimation system once the initial validation is
                                            complete and policies and procedures are fully implemented.
2004-20-001    October 2003                 Risks Are Mounting As the Integrated Financial System Project Team Strives
                                            to Meet An Aggressive Implementation Date

                                10/15/04    F-1, R-4, P-1. Ensure the Enterprise Life Cycle is updated with the new testing
                                            strategy to include a requirement to document independent acceptance roles
                                            when the Product Assurance function is not providing full, independent
                                            assurance.
                                11/15/05    F-2, R-1, P-1. Ensure the disaster recovery environment is completely built out
                                            and tested.

2004-40-003    October 2003                 The 2003 Filing Season Was Completed Timely and Accurately, But Some
                                            New Tax Law Changes Were Not Effectively Implemented

                                01/15/05    F-4, R-1, P-2, P-3. Identify and notify taxpayers that appear eligible for the
                                            Additional Child Tax Credit but did not claim the credit.
                                09/15/05    F-5, R-3, P-1. Identify and coordinate corrective actions between Submission
                                            Processing and Tax Forms and Publications functions that result from the
                                            planned examination of tax returns claiming the tuition and fees deduction.

2004-40-004    October 2003                 The Selection of Earned Income Tax Credit Returns for Examination can Be
                                            Improved to Further Prevent Payment of Erroneous Claims

                                11/15/04    F-1, R-1, P-1. Complete an analysis of the historical Dependent Database
                                            examination data to determine if there is a relationship between the direct
                                            examination time, rules identified, and disposition of examinations.
                                02/15/05    F-1, R-2, P-1. Incorporate a cost benefit analysis into the Dependent Database
                                            Risk-Based Scoring Model.




   April 1, 2004 - September 30, 2004                                                                           Page 39
                              PROJECTED                    REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                     COMPLETION               (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER          ISSUED         DATE                                    P = PLAN NUMBER)
2004-30-005   November 2003                   Key Areas of Noncompliance Among Small Business and Self-Employed
                                              Taxpayers Could Be Addressed Through More Effective Use of
                                              Correspondence Examinations

                                10/15/04      F-2, R-1, P-1. Expand the tax issues and types of returns that can be included in
                                              the inventory selected for the Correspondence Examination Program after a
                                              limited testing period.

2004-40-013   November 2003                   Improvements Are Needed in the Screening and Monitoring of E-File
                                              Providers to Protect Against Filing Fraud

                                01/15/05      F-1, R-2, P-1. Enhance the screening procedures for E-File Providers to include
                                              sending scanned fingerprints to the FBI electronically.
                                01/15/05      F-1, R-3, P-1. Enhance the screening procedures for E-File Providers to include
                                              verifying that individuals who provide professional certifications in lieu of a
                                              fingerprint card are in current standing with the organization to which the
                                              professional certification relates.

2004-20-027    January 2004                   Inadequate Accountability and Training for Key Security Employees
                                              Contributed to Significant Computer Security Weaknesses

                                08/01/04      F-1, R-1, P-2. Develop a methodology to evaluate system administrators’ and
                                              security specialists’ performance of their roles and responsibilities.
                              P-2: 09/01/04   F-1, R-2, P-2, P-4. Ensure the current effort to identify security training needs
                              P-4: 12/31/04   will result in appropriate security training for employees with key security
                                              duties.
2004-30-038    January 2004                   Access to the Toll-Free Telephone System Was Significantly Improved in 2003, But
                                              Additional Enhancement Are Needed

                                02/15/05      F-3, R-1, P-1, P-2. Develop an Activity Based Costing system that reliably captures
                                              and reports both the total cost and the cost-per-call of providing services on each
                                              toll-free product line.

2004-10-045   February 2004                   Review of the Tax Exempt and Government Entities Division’s Independent
                                              Review Process

                                03/15/05      F-1, R-1, P-1. Prepare and submit for issuance public guidance to reemphasize
                                              the IRS’ position on political activity and private benefit related to certain
                                              organizations.

2004-10-060    March 2004                     Courts Are Not Always Notified When Criminals Fail to Comply With Their
                                              Sentences to Settle Civil Tax Liabilities

                                01/15/05      F-1, R-3, P-1, P-2. Develop clear and concise procedures to define
                                              responsibilities and ensure the IRS is controlling and monitoring the accounts of
                                              the individuals whose court sentences require the settlement of their civil tax
                                              liabilities.

2004-20-063    March 2004                     Insufficient Contractor Oversight Put Data and Equipment at Risk

                                02/01/05      F-1, R-1, P-3. Ensure the PRIME contractor’s access privileges are limited to
                                              only those required to accomplish their responsibilities.
                                10/15/04      F-2, R-1, P-1. Ensure COTRs and security administrators carry out their
                                              responsibilities to periodically review contractor compliance with established
                                              security standards and controls.
                                12/15/04      F-3, R-1, P-1. Install security patches as needed and bring all contractors’
                                              computer workstations and servers up to standards.




 Page 40                                                        TIGTA Semiannual Report to Congress
                                  PROJECTED                     REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                         COMPLETION                (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER          ISSUED             DATE                                       P = PLAN NUMBER)
2004-30-068     March 2004                         Additional Efforts Are Needed to Improve the Bank Secrecy Act Compliance
                                                   Program

                                    10/15/04       F-1, R-1, P-1. Establish measurable performance-based indicators for the Bank
                                                   Secrecy Act program.
                                    10/15/04       F-2, R-1, P-1. Develop standard risk-based case selection criteria that would
                                                   provide minimum requirements and parameters for case selection.
                                    10/15/04       F-2, R-2, P-1. Reinforce the importance of case documentation with specific
                                                   instructions or case models and implement a centralized quality review process.

2004-30-074     March 2004                         The Use of Anti-Money Laundering Referrals and Currency Transaction
                                                   Information in the Income Tax Examination Process Could Be Improved

                                    10/15/04       F-1, R-1, P-1. Develop a referral review checklist or other similar methodology
                                                   to assist in ensuring all required factors, including non-filed tax returns, are
                                                   considered in evaluating Anti-Money Laundering referrals.




                         STATISTICAL REPORTS – OTHER
  Access to Information
  The Inspector General Act of 1978 requires IGs to report on unreasonable refusals of information available to the
  agency that relate to programs and operations for which the IG has responsibilities. As of September 30, 2004,
  there were no instances where information or assistance requested by the Office of Audit was refused.

  Disputed Audit Recommendations
  The Inspector General Act of 1978 requires IGs to provide information on significant management decisions in
  response to audit recommendations with which the IG disagrees. As of September 30, 2004, four reports were
  issued where a significant recommendation was disputed. Fiscal Year 2003 Statutory Audit of Compliance With
  Legal Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations, Reference No. 2003-40-
  098; The Certification and Accreditation of Computer Systems Should Remain in the Computer Security Material
  Weakness, Reference No. 2004-20-129; The Use of Audit Trails to Monitor Key Networks and Systems Should
  Remain Part of the Computer Security Material Weakness, Reference No. 2004-20-131; The Internal Revenue
  Service Faces Significant Challenges to Reduce Underused Office Space Costing $84 Million Annually, Reference
  No. 2004-10-182.

  Revised Management Decisions
  The Inspector General Act of 1978 requires IGs to provide a description and explanation of the reasons for any
  significant revised management decisions made during the reporting period. As of September 30, 2004, no
  significant management decisions were revised.

  Audit Reports Issued in the Prior Reporting Period With No Management Response
  The Inspector General Act of 1978 requires IGs to provide a summary of each audit report issued before the
  beginning of the current reporting period for which no management response has been received by the end of the
  current reporting period. As of September 30, 2004, there were no prior reports where management’s response was
  not received.

  Review of Legislation and Regulations
  The Inspector General Act of 1978 requires IGs to review existing and proposed legislation and regulations and to
  make recommendations concerning the impact of such legislation or regulations. TIGTA’s Office of Chief
  Counsel reviewed 171 proposed regulations and legislative requests during this reporting period.




   April 1, 2004 - September 30, 2004                                                                                  Page 41
                APPENDIX II – AUDIT
                    PRODUCTS


                    APRIL 1, 2004 – SEPTEMBER 30, 2004

                         INSPECTOR GENERAL CONGRESSIONAL TESTIMONY
 REFERENCE
  NUMBER                                         HEARING TITLE
                                                 APRIL 2004
2004-OT-095    Internal Revenue Service Budget Request
                                                 JULY 2004
2004-OT-141    Tax Gap


                                             AUDIT PRODUCTS
REFERENCE
 NUMBER                                          REPORT TITLE
                                                 APRIL 2004
               Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions During
2004-40-090
               November and December 2003 Than Compared to One Year Ago
               Fiscal Year 2004 Statutory Review of Compliance With Lien Due Process Procedures (Taxpayer Rights
2004-30-086
               and Entitlements: 22,478 Notices of Federal Tax Liens with potential violations of taxpayer rights)

               Additional Disaster Recovery Planning, Testing, and Training Are Needed for Data
2004-20-079    Communications (Funds Put to Better Use: $315,000) Note: monetary benefit projected over a
               five-year period

               The Risk of Inaccurate Computer Changes Can Be Reduced in Future Tests of the Earned
2004-40-089
               Income Tax Credit
               Information Is Needed to Determine the Effect the Wage and Investment Division Research
2004-40-088
               Program Has on Improving Customer Service and Voluntary Compliance

               Report on Audit of Compliance With Cost Accounting Standard 418, Allocation of Direct and
2004-1C-091
               Indirect Costs

               The Lead Development Center Effectively Researched Abusive Tax Scheme Leads but Could Be
2004-30-087
               More Proactive in Identifying Promoters

2004-30-083    Trends in Compliance Activities Through Fiscal Year 2003

2004-20-073    Penetration Test of Internal Revenue Service Computer Systems

2004-20-093    Performance Data for the Security Program Should Be Corrected




     Page 42                                                     TIGTA Semiannual Report to Congress
                                            AUDIT PRODUCTS
REFERENCE
 NUMBER                                         REPORT TITLE
              Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected When Manual Levies Are
2004-30-094
              Issued (Taxpayer Rights and Entitlements: 5 taxpayers whose appeal rights are not protected)

                                                 MAY 2004
              Improvements Are Needed to the Updated Web site for Political Organizations to Increase the
              Accuracy and Consistency of Search Results for Filing Information (Reliability of Information: 94
2004-10-097
              political organizations may not be identified on the Political Organizations Filings and Disclosure
              Internet site)
              The Statistical Sampling Method Used in the Earned Income Tax Credit Proof of Concept Test
2004-40-100
              Appears Valid
              Better Use of the National Account Profile During Returns Processing Can Eliminate Millions of
2004-40-098   Dollars in Erroneous Payments (Revenue Protection: $21 million for 22,200 taxpayers; Funds
              Put to Better Use: $28.4 million for 19,500 taxpayers)
2004-10-092   Improvements Are Needed to Ensure Relocation Advances Are Repaid Timely
              The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved (Taxpayer Burden:
              371,221 notices that were not sent to representatives authorized to receive such notices, that did
2004-40-099
              not reflect the taxpayers’ most current name or address information, or that contained unclear
              and missing information concerning recertification obligations for the Earned Income Tax Credit)
              The Compliance Services Collection Operations Function Needs to Set Specific Quantifiable
2004-40-102
              Goals to Ensure Its Reengineering Efforts Are Effective
2004-1C-096   Report on Audit of Labor Internal Controls
              TIRNO-95-D-00066 and TIRNO-00-D-00020, Incurred Costs Audit for Fiscal Year Ended June
2004-1C-101
              30, 2002 (Questioned Costs: $3,069)
2004-1C-103   Report on Follow-Up Audit of the Billing System
              The Federal, State, and Local Governments Office Is Taking Action to Identify Its Customers, but
2004-10-104   Improvements Are Needed (Reliability of Information: 10 accounts in which the entity’s
              employment codes were incorrectly reflected on IRS computer systems)
                                                 JUNE 2004
2004-20-107    Annual Assessment of the Business Systems Modernization Program
              Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of
              Illegal Tax Protester and Similar Designations (Taxpayer Rights and Entitlements: 306 taxpayers
2004-40-109
              improperly identified; Reliability of Information: 106 IRM subsections with prohibited references to
              Illegal Tax Protester designations)
              Report on Application of Agreed Upon Procedures – Quick Closeout for Contract Number
2004-1C-111
              TIRNO-95-D-00061
2004-10-113   Procedures to Collect Outstanding Emergency Salary Payments Need to Be Implemented
              Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
2004-40-108   Requested to Extend the Assessment Statute (Taxpayer Rights and Entitlements: 196 taxpayers
              that may not have been properly notified of their rights)

              Systemic Weaknesses Need to Be Addressed Before the On-Line E-File Application Is Released
2004-40-110   to the Public (Taxpayer Burden: 30,700 e-file applicants that were not issued interim letter
              acknowledging receipt of their application; Inefficient Use of Resources: $377,000)




      April 1, 2004 - September 30, 2004                                                                Page 43
                                            AUDIT PRODUCTS
REFERENCE
 NUMBER                                         REPORT TITLE
              Changes to the Regulations for Granting Extensions of Time to File Corporate Returns Are
              Needed to Alleviate Significant Problems With Administering the Tax Laws (Increased Revenue
              $512.9 million; Taxpayer Rights and Entitlements: $482.2 million in penalties and interest no
2004-30-106
              longer assessed; Taxpayer Burden: $1.97 billion representing the value of taxpayers’ time saved
              if they are not required to prepare extension forms; Inefficient Use of Resources: $5.3 million in
              reduced processing costs) Note: all benefits projected over a five-year period
2004-1C-112   Development and Implementation of an Enterprise Business System
              Additional Actions Are Necessary to Control Abuse of the Disabled Access Credit (Revenue
2004-30-118
              Protection: $4 million for 910 taxpayers)
              Improvements Are Needed in the Invoice Review Process for the Business Systems
2004-10-117
              Modernization Contract (Questioned Costs: $52,165)
              Tax Information Reported by Taxpayers Using an Individual Taxpayer Identification Number Is
2004-30-105
              Vulnerable to Fraud and Abuse
              Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities From Fiscal
2004-10-115
              Year 1999 Through Fiscal Year 2003
              Many Aspects of the Field Examination Reengineering Pilot Were Effectively Implemented;
2004-30-116
              However, Continued Monitoring Is Needed During the Nationwide Rollout
                                                 JULY 2004
              Report on Application of Agreed Upon Procedures – Quick Closeout for Contract Number
2004-1C-114
              TIRNO-95-D-00061, Delivery Orders 0009, 0010, 0016, 0019, 0023, 0024, 0026, 0027, and 0029
2004-30-119   The Fast Track Dispute Resolution Pilot Program Was Successful, but Some Challenges Remain
2004-1C-122   Report on Audit of Revised Forward Pricing Indirect Rates for Fiscal Year 2004
              Processing Improvements Have Helped Ensure United States Estate Tax Return Filers Receive
2004-30-120
              the Maximum Allowable Credits
              Report on Audit of Cost Accounting Standard 412, Composition and Measurement of Pension
2004-1C-123
              Cost, and Cost Accounting Standard 413, Adjustment and Allocation of Pension Cost
2004-1C-124   Follow-Up Review of Accounts Payable Scanning System
2004-10-121   Improved Policies and Accounting Are Needed for Child Care Centers
2004-20-126   The Use of Personal Digital Assistants Poses Significant Security Risks
2004-10-134   Procedures and Practices to Comply With the Rural Development Act of 1972 Have Improved
              Review of the Nationwide Electronic Tax Forum Conferences and Exhibitions Contract
2004-10-128
              (Questioned Costs: $684,000)
2004-1C-125   Audit of Control Environment and Overall Accounting System Controls
2004-40-143   Fair Tax Collection Practices Violations Did Not Result in Administrative or Civil Action
                                               AUGUST 2004
              TIRNO-99-D-0005, Report on Compliance With Requirements Applicable to Major Programs and
2004-1C-136   on Internal Control Over Compliance in Accordance With the Office of Management and Budget
              Circular A-133, Fiscal Year 2003 (Questioned Costs: $5,519)
2004-1C-137   Accounting System Deficiency Found During Incurred Cost Audit
2004-1C-138   Audit of Incurred Cost for the Period July 1, 1999, through June 30, 2000
              Taxpayers Experienced Improved Access to Toll-Free Telephone Services During the 2004
2004-30-144
              Filing Season
              The Certification and Accreditation of Computer Systems Should Remain in the Computer
2004-20-129
              Security Material Weakness




    Page 44                                                      TIGTA Semiannual Report to Congress
                                            AUDIT PRODUCTS
REFERENCE
 NUMBER                                        REPORT TITLE
              The Federal, State, and Local Governments Office Needs Additional Information to Assess the
2004-10-145
              Productivity of Compliance Checks and Assist Its Compliance and Outreach Efforts
              Important Progress Has Been Made in Using Research to Improve Programs for Large
2004-30-130
              Businesses, but Challenges Remain

2004-20-132   Security Weaknesses in the Modernization Infrastructure Have Not Been Adequately Addressed

              The Integrated Financial System Project Team Needs to Resolve Transition Planning and
2004-20-147
              Testing Issues to Increase the Chances of a Successful Deployment
              The Return Delinquency Notice Program Could Be Used More Effectively to Promote Filing
2004-30-127   Compliance and Reduce the Tax Gap (Increased Revenue: $436.7 million) Note: monetary
              benefit projected over a five-year period
              The Audit Trail System for Detecting Improper Activities on Modernized Systems Is Not
2004-20-135
              Functioning (Funds Put to Better Use: $584,372; Inefficient Use of Resources: $400,000)
              Additional Effort Answering Tax Law Questions Would Improve Customer Service (Taxpayer
2004-40-150
              Burden: 122 taxpayers received incorrect answers to tax law questions)
2004-1C-139   Audit of Electronic Data Processing of Accounts Payable Scanning System
              TIRNO-99-D-0005, Supplemental Report on Compliance With Requirements Applicable to Major
2004-1C-140   Programs and on Internal Control Over Compliance in Accordance With the Office of
              Management and Budget Circular A-133, Fiscal Year 2002 (Questioned Costs: $1,069)
              Information on the Centralized Authorization File Is Often Not Accurate or Complete (Taxpayer
              Burden: 2.33 million accounts with inaccurate or incomplete information on the Centralized
2004-10-148
              Authorization File (CAF); Taxpayer Privacy and Security: 197 accounts in which disciplinary
              actions against practitioners were not properly recorded on the CAF)
              Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
              Taxpayers’ Property (Taxpayer Rights and Entitlements: 23 accounts where the IRS did not
2004-30-149
              comply with legal and internal procedures or where internal procedures can be improved
              regarding seizures)
              TIRNO-95-D-00061 and TIRNO-00-D-00013, Report on Audit of Incurred Costs for Fiscal Year
2004-1C-159
              2002
2004-1C-160   Report on Audit of Corporate Office Incurred Costs for Fiscal Year 2003
2004-1C-161   Report on Follow-Up Audit of Facilities Use of Leased Space
              The Effectiveness of the Kiosk Program Cannot Be Determined (Inefficient Use of Resources:
2004-40-151
              $685,900)
              The Office of Competitive Sourcing Needs to Improve the Planning, Scheduling, and Costing of
2004-10-146   Projects (Reliability of Information: $1 million understatement in costs reported to the Department
              of the Treasury)
              Mainframe Computer Disaster Recovery Risks Are Increased Due to Insufficient Computer
2004-20-142
              Capacity and Testing (Funds Put to Better Use: $200,000)
2004-1C-162   Report on Audit of Facilities Utilization of Leased Space
              Report on Audit of Compliance With Cost Accounting Standard 416, Accounting for Insurance
2004-1C-163
              Costs
              Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue
2004-40-154
              Service Volunteer Income Tax Assistance Sites
                                             SEPTEMBER 2004
              Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved (Taxpayer Burden:
2004-40-152
              53 incorrect responses to tax law questions)
              The New Risk-Based Collection Initiative Has the Potential to Increase Revenue and Improve
2004-30-165
              Future Collection Design Enhancements




      April 1, 2004 - September 30, 2004                                                               Page 45
                                           AUDIT PRODUCTS
REFERENCE
 NUMBER                                        REPORT TITLE
              Report on Audit of Facilities Utilization of Leased Space, Washington, D.C., and Southern New
2004-1C-164
              Jersey Areas
2004-1C-169   Audit of Fiscal Year 2005 Forward Pricing Indirect Rates
              Telecommunications Costs Controls Have Not Been Effectively Implemented and Should
              Continue to Be Improved and Monitored (Questioned Costs: $2.2 million; Funds Put to Better
2004-20-156
              Use: $3.2 million; Inefficient Use of Resources: $742,000) Note: Funds Put to Better Use benefit
              projected over a five-year period
              Most Attachments Submitted With Individual Taxpayers’ Tax Returns Are Identified and
2004-40-153
              Processed
              The Controls for Examination Processes for Industry Cases With International Transfer Pricing
2004-30-133   Issues Can Be Improved (Increased Revenue: $161.5 million) Note: monetary benefit projected
              over a five-year period
              Avoidable Interest Was Paid on Tentative Carryback Refunds Requested by Corporate
2004-30-171
              Taxpayers (Funds Put to Better Use: $48.3 million)
              The Use of Audit Trails to Monitor Key Networks and Systems Should Remain Part of the
2004-20-131
              Computer Security Material Weakness
              The Office of Release Management Can Improve Controls for Modernization Program
2004-20-157
              Coordination
              The Revised Collection Case Selection Criteria That Expedites Trust Fund Workload to the Field
2004-30-173
              Appears Effective
              Improvements Are Needed for Processing Income Tax Returns of Controlled Corporate Groups
2004-30-170   (Increased Revenue: $29.7 million for 3,984 taxpayers; Taxpayer Rights and Entitlements: $2.2
              million for 1,494 taxpayers) Note: monetary benefit projected over a five-year period
2004-10-174   Audit of the Asset Seizure and Forfeiture Program Contract (Questioned Costs: $13,832)
              Restructuring and Reform Act of 1998 Section 1203 Allegations Were Properly Controlled
2004-40-176
              (Protection of Resources: 198 delayed employee investigations)
              The Voluntary Closing Agreement Program for Tax-Exempt Bonds Has Been Implemented, but
2004-10-175
              Its Impact on Voluntary Compliance Has Not Been Determined
              The Integrated Financial System Software Does Not Comply With Some Accounting Standards
2004-10-187
              or Contain Certain Functionality as Originally Asserted by the Vendor
              Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure Fair and Consistent Tax
2004-30-172
              Treatment When Filing Small Business Corporate Tax Returns
              Oversight of the Interagency Agreement Has Improved, but Additional Actions Are Needed to
2004-10-178
              Ensure Timely, Accurate, and Complete Form 5500 Return Information
2004-10-167   The Internal Revenue Service’s Annual Program Performance Report Could Be Improved
              Taxpayer Remittances Were Generally Safeguarded Within the Cincinnati Submission
2004-30-183
              Processing Site; However, Perimeter Security Needs Improvement
              The Internal Revenue Service Faces Significant Challenges to Reduce Underused Office Space
2004-10-182   Costing $84 Million Annually (Funds Put to Better Use: $252.6 million) Note: monetary benefit
              projected over a five-year period
              The Tax Exempt and Government Entities Division Ensures Reject Procedures Are Current, but
2004-10-177   Increased Controls and Analysis May Reduce Customer Burden (Taxpayer Burden: 13 returns
              with filing errors)
              The Timeliness of Processing Taxpayer Requests for Appeals Review of Collection Decisions
2004-10-185   Has Improved (Increased Revenue: $2 million for 423 taxpayers; Taxpayer Burden: 23,500
              requests not timely sent to Appeals; Reliability of Data: 11,555 records had unreliable data)
2004-30-184   Errors in Failure to Pay Penalty Amounts Occur When the Penalty Is Computed Manually




    Page 46                                                    TIGTA Semiannual Report to Congress
                                           AUDIT PRODUCTS
REFERENCE
 NUMBER                                       REPORT TITLE
2004-1C-179   Mandatory Annual Audit Requirement, Material Purchases Existence and Consumption Audit
2004-1C-181   Follow-Up Audit of Cost Accounting Standard 409, Depreciation of Tangible Capital Assets
              Audit of Noncompliance With Cost Accounting Standard 409, Depreciation of Tangible Capital
2004-1C-180
              Assets
2004-10-186   Better Procedures Are Needed to Locate, Retrieve, and Control Tax Records
              The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to Indian
2004-10-191
              Tribal Governments Most in Need of Compliance Checks
              The Taxpayer Advocate Service Needs to Improve Case Management to Ensure Taxpayer
2004-10-166   Problems Are Resolved Timely (Taxpayer Burden: 76,183 delayed cases; Reliability of Data:
              18,817 cases with unreliable data)
              Improvements Are Needed to Ensure Information Developed During Criminal Investigations Is
2004-10-189
              Referred for Civil Action (Increased Revenue: $3.9 million)
              Computer Security Roles and Responsibilities and Training Should Remain Part of the Computer
2004-20-155
              Security Material Weakness
              The Tax Exempt and Government Entities Division Strategy for Abusive Tax Avoidance
2004-10-190
              Transactions Needs Further Development
              Establishing Case Priorities and Enhancing the Processes Would Improve the Employee Plans
2004-10-192   Efforts to Resolve Reported Funding Deficiencies on Form 5500 (Reliability of Information: 167
              returns with inaccurate or incomplete information).
              Security Controls Over the Internal Revenue Service’s External Web Servers Need to Be
2004-20-188
              Strengthened
              The Oversight Board Has Achieved Much of Its Original Intent, but There Are Opportunities for
2004-10-193
              Increased Effectiveness
              Network Access, System Access, and Software Configuration Should Remain Part of the
2004-20-158
              Computer Security Material Weakness




      April 1, 2004 - September 30, 2004                                                            Page 47
        APPENDIX III- STATUTORY
           TIGTA REPORTING
            REQUIREMENTS
Thirty statutory audit reports that dealt with the adequacy and security of IRS technology were issued
during this reporting period. In FY 2004, TIGTA completed its sixth round of statutory reviews that are
required annually by the Internal Revenue Service Restructuring and Reform Act of 1998 (RRA 98). The
following table reflects the status of the FY 2004 RRA 98 statutory reviews.


REFERENCE TO STATUTORY            EXPLANATION OF THE
      COVERAGE                        PROVISION                            COMMENTS/TIGTA AUDIT STATUS

Enforcement Statistics           An evaluation of IRS’           Reference Number 2004-40-066, March 2004
                                 compliance with                 The IRS is complying with the law. A review of
Internal Revenue Code (I.R.C.)   restrictions under Section      75 judgmentally sampled enforcement employees’
§ 7803(d)(1)(A)(i)               1204 of RRA 98 on the use       performance and related supervisory documentation,
                                 of enforcement statistics to    prepared between October 1, 2002, and August 31, 2003,
                                 evaluate IRS employees.         revealed no instances of the use of records of tax
                                                                 enforcement results, production quotas, or goals to
                                                                 evaluate employee performance. In all of the
                                                                 75 performance files reviewed, there was documentation
                                                                 the employees were being evaluated on the fair and
                                                                 equitable treatment of taxpayers. In addition, a review of
                                                                 43 statistically sampled appropriate supervisors showed
                                                                 the IRS completed the required consolidated office
                                                                 certification memoranda on whether records of tax
                                                                 enforcement results were used in a prohibited manner.


Restrictions on Directly         An evaluation of IRS’           Reference Number 2004-40-059, February 2004
Contacting Taxpayers             compliance with restrictions    As in the prior reviews, TIGTA could not determine
                                 under I.R.C. § 7521 on          whether IRS employees followed proper procedures to
I.R.C.                           directly contacting taxpayers   stop an interview if the taxpayer requested to consult with
§ 7803(d)(1)(A)(ii)              who have indicated they         a representative. Neither TIGTA nor the IRS could
                                 prefer their representatives    readily identify cases where a taxpayer requested a
                                 be contacted.                   representative or the IRS contacted the taxpayer directly
                                                                 and bypassed the representative. IRS management
                                                                 information systems do not separately record or monitor
                                                                 direct contact requirements, and the Congress has not
                                                                 explicitly required the IRS to do so. TIGTA does not
                                                                 recommend the creation of a separate tracking system.


Filing of a Notice of Lien       An evaluation of IRS’           Reference Number 2004-30-086, April 2004
                                 compliance with required        The IRS did not completely comply with the law. A
I.R.C.                           procedures under I.R.C. §       review of a statistically valid sample of 130 cases identified
§ 7803(d)(1)(A)(iii)             6320 upon the filing of a       6 for which the IRS correctly mailed the lien notices, but did
                                 notice of lien.                 not mail them timely within 5 business days, as required by
                                                                 I.R.C. § 6320. In addition, for another five cases, TIGTA
                                                                 could not determine if the IRS complied with the law
                                                                 because it did not provide proof of timely mailing. Finally,
                                                                 in 24 of the 130 cases reviewed, the IRS did not follow its
                                                                 own internal guidelines when issuing lien notices, including
                                                                 the guidelines for notifying taxpayer representatives and for
                                                                 receipting and maintaining certified mail listings.




    Page 48                                                           TIGTA Semiannual Report to Congress
REFERENCE TO STATUTORY                     EXPLANATION OF THE
      COVERAGE                                 PROVISION                                COMMENTS/TIGTA AUDIT STATUS

Extensions of the Statute of             Include information                 Reference Number 2004-40-108, June 2004
Limitations for Assessment               regarding extensions of the         There was not always documentation in case files that
of Tax                                   statute of limitations for          taxpayers were advised of their rights regarding assessment
                                         assessment of tax under             statute extensions. In TIGTA’s sample, 21 percent of the
I.R.C.                                   I.R.C. § 6501 and the               case files (58 of 274 returns sampled) did not contain any
§ 7803(d)(1)(C)                          provision of notice to              documentation to support that taxpayers had been advised of
                                         taxpayers regarding the             their rights. In 20 additional cases where the IRS requested
I.R.C.                                   right to refuse or limit the        multiple extensions, there was no record documenting that
§ 6501(c)(4)(B)                          extension to particular             the taxpayers were notified of their rights for the last
                                         issues or a particular              extension requested. In 52 of 110 cases (47 percent) where
                                         period of time.                     taxpayers filed joint returns, the related case files did not
                                                                             contain any documentation that each taxpayer listed on the
                                                                             return was separately informed of their rights. In 66 of
                                                                             167 cases (40 percent) where taxpayers had a representative,
                                                                             the related case files did not contain any documentation that
                                                                             the IRS had provided both the taxpayer and his or her
                                                                             representative with the advice of rights.


Levies                                   An evaluation of IRS’               Reference Number 2004-30-094, April 2004
                                         compliance with required            The IRS has effective controls over the issuance of
I.R.C.                                   procedures under I.R.C. §           systemically generated levies in both the Automated
§ 7803(d)(1)(A)(iv)                      6330 regarding levies.              Collection System1 and Integrated Collection System
                                                                             (ICS)2 to prevent a levy from being generated unless
                                                                             there were at least 30 days between the date taxpayers
                                                                             received notice of their appeal rights and the date of the
                                                                             proposed levy. However, a review of 40 manual levies
                                                                             issued between July 1 and October 31, 2003, identified
                                                                             five instances in which revenue officers issued manual
                                                                             levies to seize the assets of taxpayers who had not been
                                                                             notified of their appeal rights.




 1
   A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from delinquent taxpayers who have
 not complied with previous notices.
 2
   An automated system used to control and monitor delinquent cases assigned to revenue officers in the IRS field offices.



      April 1, 2004 - September 30, 2004                                                                                            Page 49
REFERENCE TO STATUTORY           EXPLANATION OF THE
      COVERAGE                       PROVISION                          COMMENTS/TIGTA AUDIT STATUS

Collection Due Process          An evaluation of IRS’         Reference Number 2004-40-067, March 2004
                                compliance with required      The Appeals Officers and Settlement Officers (hearing
I.R.C.                          procedures under I.R.C. §§    officers) substantially complied with the requirements of the
§ 7803(d)(1)(A)(iii) and (iv)   6320 and 6330 regarding the   law when conducting Collection Due Process (CDP)
                                taxpayers’ rights to appeal   hearings. In 98.5 percent of the CDP cases reviewed, the
                                lien or levy actions.         hearing officers adequately considered the following
                                                              provisions of the law:
                                                                   • Obtained verification the IRS followed the applicable
                                                                     laws or administrative procedures during the lien and
                                                                     levy process.
                                                                   • Considered the issues raised by the taxpayer.
                                                                   • Considered if the proposed collection actions properly
                                                                     balanced the need for efficient collection of taxes with
                                                                     any legitimate concerns of the taxpayer about the
                                                                     intrusiveness of the liens or levies.

                                                              While the hearing officers substantially complied with the
                                                              requirements of the law when conducting CDP hearings, the
                                                              hearing officers did not address all the issues raised by the
                                                              taxpayers in the determination letters and the summary
                                                              notice of determinations in approximately
                                                              11 percent of the cases reviewed.


Seizures                        An evaluation of IRS’         Reference Number 2004-30-149, August 2004
                                compliance with required      The IRS did not always comply with legal provisions and
I.R.C.                          procedures under I.R.C. §§    internal procedures when conducting seizures. A review
§ 7803(d)(1)(A)(iv)             6330 through 6344 when        of a random sample of 50 of 380 seizures conducted
                                conducting seizures.          between July 1, 2002, and June 30, 2003, identified
                                                              38 instances in 22 of the seizures in which the IRS did
                                                              not fully comply with the I.R.C. While the review did not
                                                              identify any instances where the taxpayers were adversely
                                                              affected, not following legal and internal guidelines could
                                                              result in abuses of taxpayers’ rights.

                                                              In addition, internal guidelines for conducting seizures can
                                                              be improved to help prevent I.R.C. violations. While the IRS
                                                              has established procedures to follow in obtaining approval
                                                              prior to conducting a seizure, the Internal Revenue Manual
                                                              (IRM) does not provide specific time periods for how soon a
                                                              seizure should be conducted after the request for approval is
                                                              made or after approval is given.




    Page 50                                                        TIGTA Semiannual Report to Congress
REFERENCE TO STATUTORY             EXPLANATION OF THE
      COVERAGE                         PROVISION                            COMMENTS/TIGTA AUDIT STATUS

Taxpayer Designations – Illegal   An evaluation of IRS’           Reference Number 2004-40-109, June 2004
Tax Protester Designation and     compliance with                 In general, the IRS is in compliance with the prohibition
Nonfiler Designation              restrictions under              on using Illegal Tax Protester (ITP) or similar
                                  Section 3707 of RRA 98 on       designations. The IRS has not reintroduced past ITP
I.R.C.                            designation of taxpayers.       codes on the IRS’ Master File and has not reassigned any
§ 7803(d)(1)(A)(v)                                                similar ITP designations to formerly coded ITP taxpayer
                                                                  accounts. However, a few taxpayers’ records were coded
                                                                  as tax protesters on the Taxpayer Information File and the
                                                                  ICS. IRS employees also continue to label taxpayers as
                                                                  ITPs and other similar designations in case narratives.
                                                                  Additionally, multiple subsections of the IRM still
                                                                  contain ITP and similar designations.

                                                                  However, in its response to TIGTA’s Fiscal Year 2003
                                                                  report, the IRS disagreed with the determination that in order
                                                                  to comply with this provision, IRS employees should not
                                                                  designate taxpayers as ITPs or similar designations in case
                                                                  narratives. As a result, TIGTA elevated this disagreement to
                                                                  the Assistant Secretary for Management and Chief Financial
                                                                  Officer of the Treasury, but has not yet received a response.


Disclosure of Collection          Review and certify whether      Reference Number 2004-40-058, March 2004
Activities With Respect to        or not IRS is complying with    This is the sixth year TIGTA could not determine
Joint Returns                     I.R.C. § 6103(e)(8) to          whether the IRS is complying with the statutory
                                  disclose information to an      requirements for responding to written requests from joint
I.R.C.                            individual filing a joint       filers, because both TIGTA and the IRS are still unable to
§ 7803(d)(1)(B)                   return on collection activity   readily identify joint filer requests received nationwide.
                                  involving the other             IRS management has decided not to develop a new
I.R.C.                            individual filing the return.   management control process to track joint filer requests.
§ 6103(e)(8)                                                      IRS management information systems do not
                                                                  separately record or monitor joint filer requests, and the
                                                                  Congress has not explicitly required the IRS to do so.
                                                                  TIGTA does not recommend the creation of a separate
                                                                  tracking system.




     April 1, 2004 - September 30, 2004                                                                              Page 51
REFERENCE TO STATUTORY              EXPLANATION OF THE
      COVERAGE                          PROVISION                             COMMENTS/TIGTA AUDIT STATUS

Taxpayer Complaints                Requires TIGTA to include        Statistical results on the number of taxpayer
                                   in each of its Semiannual        complaints received are prepared by TIGTA’s Office
I.R.C.                             Reports to Congress the          of Investigations (OI) and are reflected in the OI
§ 7803(d)(2)(A)                    number of taxpayer               Statistical Reports, p. 39.
                                   complaints received and the
                                   number of employee               Reference Number 2004-40-176, September 2004
                                   misconduct and taxpayer          The IRS’ process ensured § 1203 allegations referred
                                   abuse allegations received       from TIGTA and the Employee Tax Compliance
                                   by IRS or TIGTA from             (ETC) Branch for action and management responses
                                   taxpayers, IRS employees         were accounted for and addressed. In addition, the
                                   and other sources.               IRS and the § 1203 Review Board adequately
                                                                    controlled cases forwarded to the § 1203 Review
                                                                    Board for final determination.

                                                                    However, while reviewing ETC case processing, TIGTA
                                                                    identified 198 cases as of March 31, 2004, open for over
                                                                    180 calendar days without a resolution as to whether the tax
                                                                    compliance issue was a substantiated § 1203 violation.
                                                                    Labor Relations offices did perform informal monthly
                                                                    reviews of cases over 180 calendar days old but did not
                                                                    always document their reviews. TIGTA identified some
                                                                    cases with periods spanning several months after the cases
                                                                    were 180 calendar days old where there was no activity
                                                                    noted in the case history or an explanation of the delay. In
                                                                    these overage cases, continual management oversight is
                                                                    needed to ensure more timely resolution of § 1203 violations
                                                                    and eliminate unnecessary employee stress when cases are
                                                                    needlessly delayed. TIGTA recommended the IRS
                                                                    formalize in the IRM the monthly requirement to conduct
                                                                    and document the follow-up activity on all cases open for
                                                                    over 180 days and to perform annual follow-up reviews to
                                                                    ensure the process is consistently followed.


Administrative or Civil Actions    Include information              Reference Number 2004-40-143, July 2004
With Respect to the Fair Debt      regarding any administrative     Based on a review of information recorded as potential
Collection Practices Act of 1996   or civil actions with respect    Fair Debt Collection Practices Act violations on the IRS
                                   to violations of the fair debt   computer systems, TIGTA identified no fair tax collection
I.R.C.                             collection provision of I.R.C.   practice violations that occurred after July 22, 1998, and
§ 7803(d)(1)(G)                    § 6304, including a              resulted in administrative action being taken against an
                                   summary of such actions,         employee for the period January 1 through December 31,
I.R.C.                             and any resulting judgments      2003. In addition, the IRS had no closed cases in which it
§ 6304                             or awards granted.               paid any money to taxpayers for civil actions resulting from
Section 3466 of                                                     fair tax collection practice violations.
RRA 98




   Page 52                                                               TIGTA Semiannual Report to Congress
REFERENCE TO STATUTORY          EXPLANATION OF THE
      COVERAGE                      PROVISION                           COMMENTS/TIGTA AUDIT STATUS

Denial of Requests for         Include information             Reference Number 2004-40-064, March 2004
Information                    regarding improper denial of    The IRS improperly withheld information from
                               requests for information        requesters in 4.4 percent of the Freedom of
I.R.C.                         from IRS, based on a            Information Act (FOIA) and Privacy Act (PA) requests,
§ 7803(d)(1)(F)                statistically valid sample of   and 14.6 percent of the I.R.C. § 6103 requests reviewed.
                               the total number of             TIGTA’s statistically valid samples were taken from
I.R.C.                         determinations made by the      cases closed during the period January 1 through June
§ 7803(d)(3)(A)                IRS to deny written requests    30, 2003. TIGTA estimated information was
                               to disclose information to      improperly withheld from responses to 369 FOIA and
                               taxpayers on the basis of       PA requests and 1,108 I.R.C. § 6103 requests during the
                               I.R.C. § 6103 or                sample period.
                               5 U.S.C. § 552(b)(7).


Adequacy and Security of the   Evaluation of IRS’ adequacy     Information Technology:
Technology of the IRS          and security of its             Reference Number 2004-20-001, October 2003
                               technology.                     Reference Number 2004-20-014, November 2003
I.R.C.                                                         Reference Number 2004-20-017, November 2003
§ 7803(d)(1)(D)                                                Reference Number 2004-20-026, December 2003
                                                               Reference Number 2004-20-034, January 2004
                                                               Reference Number 2004-20-041, January 2004
                                                               Reference Number 2004-20-036, February 2004
                                                               Reference Number 2004-20-061, March 2004
                                                               Reference Number 2004-20-072, March 2004
                                                               Reference Number 2004-20-107, June 2004
                                                               Reference Number 2004-20-147, August 2004
                                                               Reference Number 2004-20-156, September 2004
                                                               Reference Number 2004-20-157, September 2004

                                                               Security Reviews:
                                                               Reference Number 2004-20-027, January 2004
                                                               Reference Number 2004-20-046, February 2004
                                                               Reference Number 2004-20-053, March 2004
                                                               Reference Number 2004-20-063, March 2004
                                                               Reference Number 2004-20-081, March 2004
                                                               Reference Number 2004-20-073, April 2004
                                                               Reference Number 2004-20-079, April 2004
                                                               Reference Number 2004-20-093, April 2004
                                                               Reference Number 2004-20-126, July 2004
                                                               Reference Number 2004-20-129, August 2004
                                                               Reference Number 2004-20-132, August 2004
                                                               Reference Number 2004-20-135, August 2004
                                                               Reference Number 2004-20-142, August 2004
                                                               Reference Number 2004-20-131, September 2004
                                                               Reference Number 2004-20-155, September 2004
                                                               Reference Number 2004-20-158, September 2004
                                                               Reference Number 2004-20-188, September 2004




     April 1, 2004 - September 30, 2004                                                                      Page 53
    APPENDIX IV – SECTION                                                                1203
           STANDARDS
In general, the Commissioner of Internal Revenue       •   Violating the Internal Revenue Code of 1986,
shall terminate the employment of any IRS                  Treasury regulations, or policies of the IRS
employee if there is a final administrative or             (including the Internal Revenue Manual) for
judicial determination that, in the performance of         the purpose of retaliating against, or harassing
official duties, such employee committed any               a taxpayer, taxpayer representative, or other
misconduct violations outlined below. Such                 employee of the IRS.
termination shall be a removal for cause on
charges of misconduct.                                 •   Willfully misusing provisions of Section 6103
                                                           of the Internal Revenue Code of 1986 for the
Misconduct violations include:                             purpose of concealing information from a
                                                           Congressional inquiry.
•   Willful failure to obtain the required approval
    signatures on documents authorizing the            •   Willfully failing to file any return of tax
    seizure of a taxpayer’s home, personal                 required under the Internal Revenue Code of
    belongings, or business assets.                        1986 on or before the date prescribed
                                                           therefore (including any extensions), unless
•   Providing a false statement under oath with            such failure is due to reasonable cause and not
    respect to a material matter involving a               to willful neglect.
    taxpayer or taxpayer representative.
                                                       •   Willfully understating Federal tax liability,
•   Violating, with respect to a taxpayer, taxpayer        unless such understatement is due to
    representative, or other employee of the IRS,          reasonable cause and not to willful neglect.
    any right under the Constitution of the United
    States, or any civil right established under       •   Threatening to audit a taxpayer for the
    Title VI or VII of the Civil Rights Act of 1964;       purpose of extracting personal gain or benefit.
    Title IX of the Education Amendments of
    1972; Age Discrimination in Employment Act         The Commissioner of Internal Revenue may
    of 1967; Age Discrimination Act of 1975;           take a personnel action other than employment
    Section 501 or 504 of the Rehabilitation Act       termination for the misconduct violations
    of 1973; or Title I of the Americans with          outlined above. The exercise of this authority
    Disabilities Act of 1990.                          shall be at the sole discretion of the
                                                       Commissioner and may not be delegated to
•   Falsifying or destroying documents to              any other officer. The Commissioner, in
    conceal mistakes made by any employee              his/her sole discretion, may establish a
    with respect to a matter involving a               procedure that will be used to determine
    taxpayer or taxpayer representative.               whether an individual should be referred to the
                                                       Commissioner for a determination by the
•   Committing assault or battery on a                 Commissioner. Any determination of the
    taxpayer, taxpayer representative, or other        Commissioner in these matters may not be
    employee of the IRS, but only if there is a        appealed in any administrative or judicial
    criminal conviction, or a final judgment by        proceeding.
    a court in a civil case, with respect to the
    assault or battery.




    Page 54                                                TIGTA Semiannual Report to Congress
           APPENDIX V – DATA TABLES
             PROVIDED BY THE IRS
   The following tables contain information exactly as provided by the IRS to TIGTA and consist of
   IRS employee misconduct reports from the IRS Automated Labor and Employee Relations
   Tracking System (ALERTS). Also, data concerning substantiated §1203 allegations are included.
   IRS management conducted inquiries into the cases reflected in these tables.



                              Report of Employee Misconduct for the Period
                                  April 01, 2004 to September 30, 2004
                                    Summary by Disposition Groups



                                    TIGTA             Administrative        Employee Tax            Background
         Disposition             Investigations           Cases              Matter Cases          Investigations            Total

 Removal                                        55                   119                    34                        2           210
 Separation of
 Probationary Employees                          6                   236                    18                        8           268
 Separation of Temporary
 Employees                                       1                      1                     3                       2                 7
 Resignation/Retirement                         97                   150                    79                       12           338
 Suspensions                                    78                   236                   106                        8           428
 Reprimands                                     83                   331                   588                       18         1,020
 Counseling                                      4                   285                 1,082                       37         1,408
 Alternative Discipline                         25                    75                    27                        1           128
 Clearance                                    123                    142                    16                                    281
 Closed Without Action                        310                    246                   283                       74           913
 Closed Without Action
 (Caution Statement)                            93                    33                    68                       11           205
 Forwarded to TIGTA                                                   10                                                           10
 Total                                        875                  1,864                 2,304                     173          5,216

Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 USC § 7803(d)(2) and §4(a)2 of Treasury Delegation Order 115-01, January 14, 1999
Extract Date: Saturday, October 2, 2004 Report ID = T1R3a




           April 1, 2004 - September 30, 2004                                                                         Page 55
                                 Report of Employee Misconduct for the Period
                                     April 01, 2004 to September 30, 2004
                                              National Summary


                                                                                                Cases Closed
                                                                                                                       Non-
                               Opening          Conduct Cases                                                         Conduct        Closing
        Case Type             Inventory            Received                 Conduct Issues           Duplicates        Cases        Inventory

TIGTA Investigations
ROI1                                   652                        795                      (875)               (8)           (0)            564

Administrative Case2                   757                      1,801                    (1,864)             (20)            (9)            665

Employee Tax
Compliance Case3                     1,421                      2,093                    (2,304)             (81)            (0)         1,129

Background
Investigations4                        111                        220                      (173)               (1)           (0)            157

Total                                2,941                      4,909                    (5,216)            (110)            (9)         2,515

Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 USC § 7803(d)(2) and §4(a)2 of Treasury Delegation Order 115-01, January 14, 1999
Extract Date: Saturday, October 2, 2004             Report ID = T1R1




1
  TIGTA Investigations (ROI) - Any matter involving an employee in which TIGTA conducted an investigation into alleged misconduct and referred a
Report of Investigation (ROI) to IRS for appropriate action.
2
  Administrative Case - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
3
  Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance program which becomes a matter of official
interest.
4
  Background Investigations - Any matter involving an NBIC investigation into an employee's background that is referred to management for
appropriate action.




    Page 56                                                                TIGTA Semiannual Report to Congress
                          Summary of Substantiated §1203 Allegations
                             Recorded in ALERTS for the Period
                             April 01, 2004 to September 30, 2004


                                                                                 Removed
                                                                                   On                                In
                                              Resigned/         Probation         Other          Penalty          Personnel
    § 1203 Violation         Removals1         Retired         Separation        Grounds         Mitigated         Process          Total
Seizure Without
Approval                                 0                0                 0               0                0                1             1
False Statement
Under Oath                               0                0                 0               0                0                0             0
Constitutional &
Civil Rights Issues                      0                0                 0               0                0                0             0
Falsifying or
Destroying
Records                                  1                1                 0               0                0                1             3
Assault or Battery                       0                0                 0               0                0                0             0
Retaliate or
Harass                                   0                0                 0               0                0                1             1
Misuse of §6103                          0                0                 0               0                0                0             0
Failure to File
Federal Tax
Return                                  27              17                  7               2              38               66          157
Understatement of
Federal Tax
Liability                               15              10                  0               1              27               41          94
Threat to Audit
for Personal Gain                        0               0                  0               0               0                0            0
Totals                                  43              28                  7               3              65              110          256

Source: Automated Labor and Employee Relations Tracking System (ALERTS) and §1203 Review Board records.
Extract Date: Saturday, October 2, 2004




1
    The cases reported as "Removals" and "Penalty Mitigated" (see column above) do not reflect the results of any third party appeal.




           April 1, 2004 - September 30, 2004                                                                                       Page 57
 Call our toll-free hotline to report
       fraud, waste, or abuse:

     1-800-366-4484
              or write:

Treasury Inspector General for
     Tax Administration
         P.O. Box 589
     Ben Franklin Station
 Washington, D.C. 20044-0589


  Information is conﬁdential and
    you may remain anonymous
                 DEPARTMENT OF THE TREASURY
          Ofﬁce of the Inspector General for Tax Administration
                   1125 15th Street, NW, Room 700A
                         Washington, D.C. 20005


This report, as well as complete copies of our audit reports, are available on line at:
                               http://treas.gov/tigta
